<html>
<title> - URGING CHINA'S PRESIDENT XI JINPING TO STOP STATE SPONSORED HUMAN RIGHTS ABUSES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




 
   URGING CHINA'S PRESIDENT XI JINPING TO STOP STATE	SPONSORED HUMAN 
                             RIGHTS ABUSES

=======================================================================

                                HEARING

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 18, 2015

                               __________

 Printed for the use of the Congressional-Executive Commission on China
 
 
 
 
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
 
 
 


         Available via the World Wide Web: http://www.cecc.gov
         
         
         
         
                              _________ 
                                 
                      U.S. GOVERNMENT PUBLISHING OFFICE
  98-714 PDF                WASHINGTON : 2016       
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001        
         
         
         


              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

House

                                     Senate

CHRIS SMITH, New Jersey, Chairman    MARCO RUBIO, Florida, Cochairman
ROBERT PITTENGER, North Carolina     TOM COTTON, Arkansas
TRENT FRANKS, Arizona                STEVE DAINES, Montana
RANDY HULTGREN, Illinois             JAMES LANKFORD, Oklahoma
TIM WALZ, Minnesota                  BEN SASSE, Nebraska
MARCY KAPTUR, Ohio                   SHERROD BROWN, Ohio
MICHAEL HONDA, California            DIANNE FEINSTEIN, California
TED LIEU, California                 JEFF MERKLEY, Oregon
                                     GARY PETERS, Michigan

                     EXECUTIVE BRANCH COMMISSIONERS

                 CHRISTOPHER P. LU, Department of Labor
                   SARAH SEWALL, Department of State
                STEFAN M. SELIG, Department of Commerce
                 DANIEL R. RUSSEL, Department of State
                  TOM MALINOWSKI, Department of State

                     Paul B. Protic, Staff Director

                Elyse B. Anderson, Deputy Staff Director

                                  (ii)
                                  
                                  
                                  
                             C O N T E N T S

                              ----------                              

                               Statements

                                                                   Page
Opening Statement of Hon. Christopher Smith, a U.S. 
  Representative from New Jersey; Chairman, Congressional-
  Executive Commission on China..................................     1
Cotton, Hon. Tom., a U.S. Senator from Arkansas..................     3
Pittenger, Hon. Robert, a U.S. Representative from North Carolina     5
Teng Biao, a well-known Chinese human rights lawyer, a Harvard 
  University Law School Visiting Fellow, and Co-founder, the Open 
  Constitution Initiative........................................     7
Xiao Qiang, Founder and Editor-in-Chief, China Digital Times.....     9
Yang Jianli, President, Initiatives for China/Citizen Power for 
  China..........................................................    11
Wei Jingsheng, Chairman, Overseas Chinese Democracy Coalition....    13
Hoshur, Shohret, Journalist reporting news in China's Xinjiang 
  Uyghur Autonomous Region for Radio Free Asia...................    14
Gutmann, Ethan, China analyst and author of ``The Slaughter: Mass 
  Killings, Organ Harvesting, and China's Secret Solution to its 
  Dissident Problem''............................................    16

                                APPENDIX
                          Prepared Statements

Teng Biao........................................................    34
Xiao Qiang.......................................................    35
Yang Jianli......................................................    37
Wei Jingsheng....................................................    49
Hoshur, Shohret..................................................    51
Gutmann, Ethan...................................................    53

Smith, Hon. Christopher, a U.S. Representative from New Jersey; 
  Chairman, Congressional-Executive Commission on China..........    54
Rubio, Hon. Marco, a U.S. Senator from Florida; Cochairman, 
  Congressional-Executive Commission on China....................    56

                       Submission for the Record

Witness Biographies..............................................    57


                 URGING CHINA'S PRESIDENT XI JINPING TO



                STOP STATE-SPONSORED HUMAN RIGHTS ABUSES

                              ----------                              


                       FRIDAY, SEPTEMBER 18, 2015

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 2:02 p.m., 
in room HVC 210, Capitol Visitor Center, Representative 
Christopher Smith, Chairman, presiding.
    Also present: Senator Tom Cotton and Representative Robert 
Pittenger.

      OPENING STATEMENT OF HON. CHRISTOPHER SMITH, A U.S. 
    REPRESENTATIVE FROM NEW JERSEY; CHAIRMAN, CONGRESSIONAL-
                 EXECUTIVE COMMISSION ON CHINA

    Chairman Smith. The Commission will come to order. And I 
want to begin first by welcoming each and every one of you 
here--Senator Tom Cotton, who is a member of the Commission, a 
former Member of the House now serving with great distinction 
over on the Senate side and, of course, Commissioner Pittenger, 
who is also a totally dedicated human rights advocate. And I 
want to thank him for his leadership on all issues related to 
China, but also religious freedom around the world.
    I will give a very brief opening statement, then yield to 
my distinguished colleagues for any comments they might have.
    On July 10, police came for lawyer Wang Yu. Her arrest was 
the first in what became a massive crackdown on China's human 
rights defenders. Wang Yu was one of China's brightest and 
bravest lawyers. She chose to represent clients in sensitive 
cases, such as Uyghur professor Ilham Tohti and Falun Gong 
practitioners.
    Police later swept up her husband and others who worked at 
their Beijing law firm. What originally looked like a targeted 
attack on one law firm quickly became a coordinated hunt for 
human rights lawyers and legal staff across 19 Chinese 
provinces.
    Over the next few weeks, over 300 human rights lawyers and 
legal staff were detained. Of that number, around 27 remain 
incarcerated and 10 face charges of committing national 
security crimes.
    Li Heping and Zhang Kai, two lawyers well known to this 
Congress and other parliamentarians around the world, were 
``disappeared'' in this crackdown. They remain missing and are 
reportedly denied access to family or legal counsel. Zhang Kai 
was arrested the night before a planned meeting with U.S. 
Ambassador-at-Large Rabbi David Saperstein.
    These detentions were lawless; they were brutal and 
shocking. Sadly, they are not without precedent in China. 
President Xi comes to the United States next week, at a time 
when his government is staging an extraordinary assault on the 
rule of law, human rights and civil society.
    Under Xi's leadership, the Chinese Government has pushed 
through new laws and draft legislation that would legitimize 
political, religious, and ethnic repression, further curtail 
civil liberties, and expand censorship of the Internet.
    China also continues its coercive population control 
policies. The one-child-per-couple policy will mark its 35th 
anniversary next week. That's 35 years of telling couples that 
their family--what they must look like, 35 years of forced and 
coercive abortions and sterilizations, 35 years of children 
viewed by the state as excess baggage from the day that they 
were conceived, 35 years where brothers and sisters are 
illegal.
    This policy is unacceptable. It is hated by the people. It 
is tragic and it is absolutely wrong. We urge President Xi to 
do the right thing and end China's horrific population control 
policies forever.
    The NGO Chinese Human Rights Defenders says President Xi 
has, ``overseen one of the most repressive periods in the post-
Mao Zedong era.''
    The CECC, whose annual report will be officially released 
in three weeks, will conclude that the Chinese Government's 
efforts to, ``silence dissent, suppress human rights advocacy, 
and control civil society are broader in scope than any other 
period documented since the Commission started issuing its 
annual reports beginning in 2002.''
    China is in a race to the bottom with North Korea for the 
title of world's worst violators of human rights. The hope that 
President Xi would be different, a different type of leader, 
has been completely destroyed.
    Nonetheless, despite the torture and arrests, despite the 
harassment and censorship, the black jails and failed promises, 
the continued growth of trafficking--particularly sex 
trafficking, rights advocates, civil society activists, and 
religious believers continue to grow in prestige and social 
influence in China.
    Persecution has not silenced them, at least not at this 
moment. It has not dimmed their hope for a different kind of 
China Dream that embraces human rights, freedom, and democracy.
    U.S. policy must be geared to protect China's rights 
defenders and religious communities and its women, especially 
against coercive population control, and nurture China's civil 
society, its work, and those committed to the rule of law and 
fundamental freedoms.
    The United States cannot be morally neutral in this regard. 
We cannot be silent in the face of the Chinese Government's 
repression. We must show leadership and resolve, because only 
the United States has the power and prestige to stand up to 
China's intransience.
    U.S.-China relations would be stronger and more stable if 
people like Wang Yu or Li Heping and Zhang Kai were in 
positions of leadership in the Chinese Government.
    Washington is preparing to roll out the red carpet, as we 
all know, next week for President Xi and his delegation. Toasts 
will be made, statements will be exchanged, with a lot of happy 
faces and, again, it is important that the issues of human 
rights and democracy and the rule of law be raised in a 
profound and public way by the President, and all others with 
whom President Xi will meet.
    If Obama fails to raise human rights prominently, as he has 
failed to do in the past, it is a diplomatic win for Xi 
Jinping. If economic and security interests grab all of the 
headlines, China's freedom advocates will despair. If there is 
no price to be paid for China's increased lawlessness and 
repression, it is a loss for everyone who is committed to 
freedom and rights.
    We can no longer afford to separate human rights from our 
other interests in China. That has gone on for far too long. 
Human rights cannot be considered a separate track with 
discussions and negotiations in one room, totally disconnected 
from U.S. foreign policy. It needs to be integrated at all 
levels.
    Surprisingly, former Secretary of the Treasury Henry 
Paulson agrees with this assessment. Mr. Paulson is not known 
as a passionate defender of human rights, but in his latest 
book, ''Dealing With China,'' he says that the United States 
must not shy away from ``shining a light on human rights 
problems, because nothing good happens in the dark.''
    He says the United States must push for greater 
transparency, the free flow of information and better adherence 
to universal standards in China, not only because they 
represent universal values, but because they are critical parts 
of U.S. economic interests.
    It is increasingly clear that there is a direct link 
between China's domestic human rights problems and the security 
and prosperity of the United States. The health of our economy 
and environment, the safety of our food and drug supplies, the 
security of our investments and personal information in 
cyberspace, and the stability of the Pacific region will depend 
on China's complying with international law, allowing the free 
flow of news and information, complying with its WTO 
obligations and protecting the basic rights of its citizens.
    President Obama must shine a bright light on China's human 
rights abuses. He must raise issues about the South China Sea 
and what is happening with regard to the Chinese military's 
expansionist ambitions, and he must use all of our diplomatic 
tools, including sanctions if necessary, to demonstrate our 
resolve on these important issues.
    I would like to yield to my good friend and colleague, 
Commissioner, also Senator, Cotton.

   STATEMENT OF HON. TOM COTTON, A U.S. SENATOR FROM ARKANSAS

    Senator Cotton. Thank you very much, Chairman Smith. Thank 
you for your years of leadership on this and so many other 
critical human rights issues.
    I want to thank the witnesses today, not only for taking 
the time to testify, but for the work you do to shine a light 
on the dire human rights situation in China.
    Chinese President Xi Jinping will arrive in the United 
States next week. His handlers have clearly crafted his 
schedule to project a modern and dignified image of Xi's role, 
but I see no evidence of modernity or dignity. I only see a 
parade of stark contrasts, shameful juxtapositions and bitter 
ironies.
    Xi's first stop will be a technology conference that China 
has organized in Seattle. Leaders of companies such as 
Facebook, Microsoft, and Google are expected to attend.
    In Seattle, these tech titans will share pleasantries with 
Xi. But in China, their companies can't deliver information to 
the Chinese people because of Beijing's Great Firewall. And 
Xi's government uses that leverage to pressure tech companies 
into arrangements to censor content.
    In Seattle, Xi will talk about expanding trade and 
technology, but in China he's depriving NGOs, journalists, and 
civil rights activists access to the Internet technology, 
fearful that they will organize amongst themselves, share 
information, and undermine the authoritarian regime.
    Xi will also visit Boeing's factory in Everett, WA. In 
Everett, he'll no doubt praise the efficiency of the factory, 
operated by American workers who enjoy labor rights and 
workplace protections. But in China, labor organizers stand a 
good chance of being abducted, severely beaten, and left for 
dead a mile outside a city, as happened to Chinese labor 
advocate Peng Jiayong.
    In Everett, Xi will see that all workers are skilled 
adults, but in China authorities ignore child-labor laws, 
leaving 13-year-olds like Li Youbin to die after working slave-
labor shifts in harrowing conditions.
    Xi will then travel to New York City, where he will chair a 
global leaders meeting on gender equality and women's 
empowerment at the United Nations.
    In New York, Xi will praise international roadmaps toward 
gender equality, but in China, women are subjected to forced 
abortions, mandated sterilization, and mass implantation of 
birth control devices, all to advance Xi's population control 
policies.
    In New York, Xi will urge other nations to commit to 
efforts to empower women, but in China Xi's regime arrests 
female lawyers and women's rights activists like Wang Yu.
    In New York, Xi will purport to stand in judgment over 
other nations on women's rights, but in China prison guards 
raped and abused Li Ruirui. She was being held in an extralegal 
detention center for dissidents, or it is referred to as a 
``black jail.''
    Unfortunately, her story is not unique. The grand majority 
of detainees in so-called ``black jails'' are women, and they 
are at constant risk of rape and abuse by the regime's thugs.
    The highlight of Xi's trip, of course, will be Washington, 
DC, a meeting and state dinner with President Obama. Xi and 
President Obama will hold a press conference where Xi will see 
a number of journalists representing a free press corps.
    But in China, his regime arrests journalists who publish 
inconvenient information. After a stay in jail, the government 
parades the reporters before cameras to confess their supposed 
crimes.
    Xi and the President will have a private meeting, perhaps 
over tea. But in China, being invited for tea has a very 
different meaning. It is code among civil society activists for 
being summoned by state security services to be interrogated, 
intimidated, and put on notice that the government is watching 
you.
    During the state dinner, Xi will enjoy the sweetest of 
meats and the finest of wines in stately environs of the White 
House. But in China, Gao Zhisheng, a human rights lawyer, was 
imprisoned in a dark cell for years and allowed only a slice of 
bread and a piece of cabbage each day. He was also tortured 
with cigarette butts, electrified wires, and toothpicks rammed 
into his genitals.
    Among Gao's crimes was his defense of persecuted religious 
groups--Christians, Tibetans, Uyghurs, and practitioners of 
Falun Gong. These believers are constant targets of government 
surveillance, imprisonment, torture, and forcible medication.
    President Obama is welcoming Xi to the United States in the 
grandest diplomatic fashion. But as they sit next to each other 
in that state dinner, I hope President Obama recognizes what is 
perhaps the starkest irony of Xi's trip to the United States.
    If President Obama had lived his life not in the United 
States but in China, as a Christian, a community organizer, a 
civil rights lawyer, and a constitutional law professor, he 
would not be enjoying a grand fete with Xi Jinping. President 
Obama most likely would be in prison, or much, much worse.
    Chairman Smith. Thank you very much, Senator Cotton, for 
that very eloquent statement.
    Mr. Pittenger?

STATEMENT OF HON. ROBERT PITTENGER, A U.S. REPRESENTATIVE FROM 
                         NORTH CAROLINA

    Representative Pittenger. Thank you, Chairman Smith, for 
allowing me to make an opening statement and for participating 
in this important hearing.
    Thank you, as well, to our witnesses for appearing here 
today.
    China is among one of the world's greatest powers, but its 
rise has come at a spectacular cost--the rights of its people.
    Now, America has her own faults. America is dealing with 
crime. We deal with violence, with drugs, with racial issues. 
Notwithstanding that, but as we address our own concerns, we 
must have an honest dialogue with the Chinese leadership.
    There is little question of China's frequent, systemic 
violations of human rights. Their thinly veiled offenses 
against freedom of the press, expression, religion, and speech, 
as well as their focused attacks on international entities and 
human rights advocates, paint a picture of a stifling and 
oftentimes terrifying life for the Chinese people.
    We must not turn a blind eye to these horrific acts. Among 
other initiatives in Congress, and as part of this Commission, 
I am proud sponsor of H.R. 343, which expresses strong outrage 
regarding reports of China's systemic, state-sanctioned organ 
harvesting to non-consenting prisoners of conscience.
    While these efforts are important, President Xi Jinping's 
upcoming visit to the White House presents a unique opportunity 
for President Obama to become a champion for human rights and 
freedoms of conscience for the Chinese people.
    It is imperative that President Obama use every available 
opportunity to discuss these issues with President Xi Jinping. 
The United States must remain committed to the human rights of 
all peoples and hold our counterparts around the world 
accountable to their violations.
    We must promote human rights and fair treatment for all in 
China and across the world.
    I am grateful to those who will offer testimony today, and 
I yield back.
    Mr. Chairman, your respect for this Commission, I do have a 
plane I have got to catch, and I regret that. But I offer my 
deep commitment to each of you in this cause.
    Chairman Smith. Well, thank you very much, Commissioner 
Pittenger, and I do hope--and I know you will--take the 
testimony to read, because the testimony is devastating.
    Representative Pittenger. Yes.
    Chairman Smith. Thank you.
    I would like to introduce our distinguished witnesses, 
beginning first with Dr. Teng Biao, who is a well-known human 
rights lawyer, visiting fellow at Harvard University Law 
School, and co-founder of the Open Constitution Initiatives. 
Dr. Teng holds a Ph.D. from Peking University Law School, and 
has been a visiting scholar at Yale Law School.
    As a human rights lawyer, Dr. Teng is a promoter of the 
Rights Defense Movement and co-initiator of the New Citizens 
Movement in China. In 2003, he was one of the three Doctors of 
Law who complained to the National People's Congress about the 
unconstitutional detentions of internal migrants. And of 
course, Dr. Teng is involved in so much more.
    A full bio for all of you will be made a part of the 
record, without objection.
    We will then hear from Xiao Qiang, who is the founder and 
editor-in-chief of China Digital Times, a bilingual Chinese 
news website. He is an adjunct professor at the School of 
Information at the Graduate School of Journalism at the 
University of California at Berkeley. He is also the principal 
investigator of the Counter-Power Lab, an interdisciplinary 
faculty-student research group focusing on technology and the 
free flow of information in cyberspace based in the School of 
Information at Berkeley.
    We will then hear from Yang Jianli, who is the president of 
Initiatives for China/Citizen Power for China. Dr. Yang is a 
scholar and democracy activist internationally recognized for 
his efforts to promote democracy in China.
    He has been involved in the pro-democracy movement in China 
since the 1980s and was forced to flee China in 1989, after the 
Tiananmen Square Massacre. Dr. Yang returned to China to 
support the labor movement and was imprisoned by Chinese 
authorities for espionage and illegal entry.
    Following his release in 2007, he founded Initiatives for 
China, a non-governmental organization that promotes China's 
peaceful transition to democracy.
    We will then hear from Wei Jingsheng, a long-time leader 
for the opposition against the Chinese Government dictatorship. 
He was sentenced to jail twice for a total of more than 18 
years due to his pro-democracy activities, particularly the 
Democracy Wall.
    After his exile to the United States in 1997, he founded 
and has been the chairman of the Overseas Chinese Democracy 
Coalition, which is an umbrella organization for many Chinese 
democracy groups, with members in over a dozen countries.
    He is also president of the Wei Jingsheng Foundation and 
president of the Asia Democracy Alliance. And I would note 
parenthetically, in the early 1990s, soon after Tiananmen 
Square, on one of my many trips to China, I traveled, visited, 
had dinner with Wei Jingsheng.
    He was let out of prison in order to get the 2000 Olympics. 
He was that high of a political prisoner asset to the Chinese 
Government. They thought if they let out Wei Jingsheng, they 
were more likely to get the 2000 Olympics.
    They did not get it and they rearrested him, but we had 
dinner and he went back to not only being jailed, but also 
being very harshly treated, including multiple beatings.
    We will then hear from Shohret Hoshur, who is a journalist 
reporting on news in China's Xingjiang Uyghur Autonomous Region 
for Radio Free Asia, where he has worked since 2007.
    He began his career in 1989 in China's far west as a TV 
reporter. In 1994, Chinese authorities condemned two of his 
editorials as subversive, forcing him to flee his homeland.
    As stated in the New York Times profile, ``His accounts of 
violence in his homeland are among the few reliable sources of 
information about incidents in a part of China that the 
government has sought to hide from the international 
community.''
    We will then hear from Ethan Gutmann, who is an award-
winning China analyst and human rights investigator and the 
author of ``The Slaughter: Mass Killings, Organ Harvesting and 
China's Secret Solution to its Dissident Problem'' and ``Losing 
the New China: A Story of American Commerce, Desire and 
Betrayal.''
    Currently based in London, Mr. Gutmann has been associated 
with several Washington think tanks over the years, including 
the Foundation for the Defense of Democracies, the Free 
Congress Research and Education Foundation and the Brookings 
Institution.
    I would like to now turn it to Dr. Teng.

   STATEMENT OF TENG BIAO, A WELL-KNOWN CHINESE HUMAN RIGHTS 
 LAWYER, A HARVARD UNIVERSITY LAW SCHOOL VISITING FELLOW, AND 
          CO-FOUNDER, THE OPEN CONSTITUTION INITIATIVE

    Mr. Teng. Thank you.
    Since July this year, at least 300 lawyers have been 
kidnapped, arrested, disappeared, or intimidated. Most of them 
are my friends. This ongoing persecution of rights lawyers is 
only a small part of Xi Jinping's comprehensive crackdown on 
civil society.
    Since Xi Jinping came to power in 2012, at least 2,000 
human rights defenders have been detained or sentenced, 
including Uyghur scholar Ilham Tohti and his students. Also 
detained were journalist Gao Yu, lawyer Xu Zhiyong, Pu 
Zhiqiang, Tang Jingling, Li Heping, Sui Muqing, Zhang Kai, Wang 
Quanzhang, Wang Yu, rights defender Guo Feixiong, Liu Ping, 
Zhang Shengyu, Su Changlan, and dissidents Qin Yongmin, Zhang 
Lin, Jang Lijun, Hu Shigen, Yu Shiwen, and some prisoners of 
conscience that are in custody, like Cao Shunli and Tenzin 
Deleg Rinpoche.
    Obviously, after torture or inhumane treatment in Zhejiang 
and other provinces, government destroyed thousands of church 
buildings, arrested pastors and Christians, and demolished the 
crosses. Falun Gong practitioners were detained or sent to 
legal education centers, a kind of extra-legal detention. Many 
of them have been tortured to death. Other small religious 
groups are persecuted after the government has listed them as 
evil cults.
    Many NGOs have been shut down, like Gongmeng--the Open 
Constitution Initiative. Even those NGOs focusing on the 
environment, women's rights, LGBT [lesbian, gay, bisexual, and 
transgendered], or citizen libraries are not allowed to work.
    The Communist Party made new regulations or policies on 
education and ideology, more censorship on Internet, textbooks, 
publishing, and traditional media.
    The Communist Party authorities, with their excessive 
violence, have created hostility, division, and despair in 
Xinjiang and Tibet.
    In Xinjiang, many protests were labeled as terrorist 
attacks; thus, many Uyghur people were shot dead without any 
necessity or legal basis. In Tibet, the number of self-
immolations has been 147. Seventy-nine self-immolations 
happened since November 2012, since Xi came into office. Some 
family members of the self-immolators were even detained or 
sentenced.
    Why is Xi Jinping purging the rights activists? Xi Jinping 
is somebody living in the 1960s. He never accepts the idea of 
liberal democracy or constitutionalism or human rights.
    What he has been doing, and is going to do, is maintain the 
Communist Party's monopoly of power. He will not tolerate any 
challenge to the one-party rule. The Communist Party never 
stops its punishment on activists, but Xi has a much lower 
threshold of prisons.
    But the deep reason is located in the whole political and 
social situation. China has become the second-largest economy 
in the world. China is flexing its muscles by military parades, 
AIIB [Asian Infrastructure Investment Bank], and a new message 
on the South China Sea by tearing up the promise of Hong Kong's 
autonomy. Also by detaining Nobel Laureate Liu Xiaobo, 
disappearing the Panchen Lama, arresting more and more rights 
activists.
    But the Party's attempts to project confidence cannot 
disguise its panic. It is beset by economic strife, antagonism 
between officials and the people, widespread corruption, 
environmental and ecological disasters, unrest in Xinjiang and 
Tibet, and its own sense of ideological crisis.
    Compared with all of these things, the rights lawyers and 
civil society activists are gaining in prestige, influence, and 
organizational capacity. Since 2003, more and more people 
joined in the Rights Defense Movement. Human rights lawyers 
defend civil rights, challenge the abuse of power, and promote 
rule of law in China.
    People organize more and more NGOs, working on various 
rights of the unprivileged people. Bloggers and writers 
criticize the comments or disseminate its information on 
sensitive events.
    Activists initiated New Citizens Movement or Southern 
Street Movement to demand political rights. People gather 
privately to commemorate the Tiananmen Massacre.
    Xi Jinping is coming here soon, while the human rights 
situation is deteriorating in China. ``The day we see the truth 
and cease to speak is the day we begin to die,'' Martin Luther 
King, Jr., once said. We should not keep silent when so many 
Chinese people are suffering the atrocities of the Communist 
Party.
    History of the Nazis will repeat itself when people choose 
to do nothing when Xi Jinping is going toward Hitler. Those who 
welcome Xi Jinping without raising human rights issues are 
helpers of the dictator.
    I recommend that the U.S. Congress pass an act on China's 
human rights, making sure that U.S. companies and universities 
comment on the government's organizations, not involving human 
rights violations when dealing with China, making sure that 
perpetrators are being prevented from entering the United 
States.
    Thank you very much for your support of human rights and 
freedom.
    Chairman Smith. Thank you so very much for your testimony, 
and we will wait for questions until after everyone has 
completed.
    Mr. Xiao?
    [The prepared statement of Mr. Teng appears in the 
appendix.]

  STATEMENT OF XIAO QIANG, FOUNDER AND EDITOR-IN-CHIEF, CHINA 
                         DIGITAL TIMES

    Mr. Xiao. Thank you, Mr. Chairman. I really am grateful for 
you, congressman, that for so many years you have been 
upholding human rights in this position, and you are a great 
friend of Chinese people.
    My own work is on China's state censorship, particularly on 
the Internet censorship, suppression of the media and freedom 
of expression in general.
    Today I want to point out two examples. One is about 
domestic censorship; one is about the Internet censoring at the 
border of China.
    China has the world's largest number of Internet users, 
estimated at 641 million to date. After President Xi Jinping 
took power in 2012, he framed the Internet as a battlefield for 
ideological control and appointed himself head of a top-level 
Internet security committee. He also established the State 
Internet Information Office. Later on, it was renamed 
Cyberspace Administration of China, and it continues to 
intensify restrictions and controls on Internet freedom.
    In the past two and a half years, Xi's administration has 
not only expanded its crackdown on freedom of expression and 
freedom of the press, it has also launched a ferocious assault 
on civil society. My respected colleague, Dr. Teng Biao, just 
gave a comprehensive list of that crackdown.
    These violations of fundamental rights and freedoms also 
have been well documented by international human rights 
organizations. For example, Freedom House's annual report, 
``Freedom on the Net,'' details China's restriction of Internet 
freedom by blocking and filtering access to international 
websites, censoring online content and violating users' rights. 
I recommend Freedom House's excellent report to the Commission.
    China Digital Times, my own work, closely follows the 
interplay of the censorship, activism, and emerging public 
opinion of the Chinese Internet. In particular, we collect and 
translate many of the censorship directives the Party sends to 
the state media and Internet companies. We also aggregate 
breaking news deemed sensitive by state censors.
    During the last 12 years, the China Digital Times team has 
published over 2,600 such censorship directives and, using 
these directives, has pieced together how the Chinese 
Government restricts Internet freedom. Here I am just going to 
share one example with the Commission.
    On September 7, 2015, the Chinese Communist Party's Central 
Propaganda Department issued a classified document marked as 
Notice Number 320 for the year 2015. In other words, until this 
day this year, they had already issued 320 of such notices.
    This document instructs state media to report positively on 
the economy. Here is one excerpt of this document:

    The focus for the month of September will be strengthening 
economic propaganda and guiding public opinion, as well as 
overall planning for domestic- and foreign-facing propaganda 
and Internet propaganda, in order to take the next step in 
promoting the discourse on China's bright economic future and 
the superiority of China's system, as well as stabilizing 
expectations and inspiring confidence.

    In fact, both state and independent media have been 
pressured to keep economic reporting upbeat and to downplay the 
stock market crash last month. A directive from August 25 
required Chinese websites to delete specific essays about the 
crash, while in June another directive instructed TV and radio 
stations to, ``rationally lead market expectations to prevent 
inappropriate reports from causing the market to spike or 
crash.''
    The Central Government did not stop at issuing Internet 
censorship and propaganda instructions. In August, Caijing 
reporter Wang Xiaolu confessed on CCTV to, ``causing panic and 
disorder,'' with a negative story on the stock market slump.
    In this case, the Chinese Government is persecuting and 
prosecuting Chinese citizens, to quote H.R. 491, for ``posting 
or transmitting peaceful political, religious, or ideological 
opinion or belief via the Internet.''
    Mr. Chairman, members of the Commission, I also would like 
to recommend another remarkable report, ``China's Great 
Cannon,'' published by Toronto University's Citizen Lab. The 
Great Cannon is an attacking tool used to launch distributed 
denial-of-service attacks on websites by intercepting massive 
amounts of Web traffic and redirecting it to targeted websites.
    The first deployment of the Great Cannon was in late March 
2015, targeting two specific users of the San Francisco-based 
code-sharing site GitHub; The New York Times' Chinese mirror 
site, and another anti-censorship organization, GreatFire.org.
    Based on this weapon's network position across different 
Chinese Internet service providers and on similarities of its 
source code to the Great Firewall, the researchers at Citizen 
Lab and the International Computer Science Institute based in 
Berkeley believe there is compelling evidence that the Chinese 
Government operates this Great Cannon.
    In other words, the Chinese Government is not only 
deliberately blocking, filtering, and censoring online 
information based on the expression of political, religious, 
and ideological opinion in China, it is also using technology 
to disrupt Internet traffic and commercial infrastructures 
beyond its borders.
    Mr. Chairman, I want to thank the Commission for holding 
this important public hearing on human rights in China days 
before Chinese President Xi Jinping's first state visit to the 
United States.
    I urge President Xi Jinping to stop his repressive policies 
and practices. The Chinese people want and deserve more access 
to information and the Internet, and greater freedom to express 
their views. Chinese people desire and demand greater 
protection of human rights in their political, social, 
economic, and cultural life.
    I urge President Obama to engage President Xi on Internet 
freedom, press freedom, and freedom of expression in their 
meetings, not only raising concerns, but also insisting 
publicly that future political and economic relations be 
dependent on the Chinese Government demonstrating improvements 
in upholding human rights.
    Thank you, Mr. Chairman.
    Chairman Smith. Mr. Xiao, thank you so very much for your 
leadership on many issues, but that one in particular with 
regard to the Internet.
    Dr. Yang?
    [The prepared statement of Mr. Xiao appears in the 
appendix.]

  STATEMENT OF YANG JIANLI, PRESIDENT, INITIATIVES FOR CHINA/
                    CITIZEN POWER FOR CHINA

    Mr. Yang. Mr. Chairman and the members of the Commission. 
Thank you for holding this important hearing. Twenty-six years 
ago, after the Tiananmen Massacre, we came to Washington, DC, 
to plead with the U.S. Government to link China's most-
favorite-nation [MFN] status with its human rights record. 
Without such a link, we argued that trading with China would be 
like a blood transfusion to the Communist regime, making it 
more aggressive while harming the interests of American and 
Chinese people.
    But our warning fell on deaf ears. After a lengthy debate, 
the U.S. Government decided to grant permanent MFN to China, 
contending that economic growth would automatically bring 
democracy to that country.
    With money and technologies pouring in from the United 
States and other Western countries and their free markets wide 
open for Chinese-made goods, the Chinese Communist regime not 
only survived the 1989 crisis, it catapulted into the 21st 
century. The country's explosive economic growth has brought it 
from near the bottom of the world in GDP per capita to the 
second-largest economy in the world. But democracy remains yet 
only a far-fetched dream.
    Worse, today the Xi Jinping regime, as you have already 
heard from two of my colleagues and will hear from other fellow 
panelists, has launched numerous assaults in the past two 
decades against China's civil society on a scale and with 
ferocity making Xi Jinping China's worst leader in 20 years in 
terms of human rights record.
    China uses its economic power, gained with the help of the 
West, to build a formidable, fully modernized military that has 
reached every corner of the Earth. With this unprecedented 
power, China is now forcefully demanding a rewrite of 
international norms and rules. China wants to create a new 
international order threatening regional and world peace, with 
its dominance in the Asian-Pacific region as the centerpiece.
    What went wrong with the American engagement policy? In my 
view, the failure lies primarily in the lack of moral and 
strategic clarity in its design and implementation. The origin 
of the error can trace back to the early 1970s, when then-
Secretary of State Henry Kissinger, claiming that by 
integrating Beijing into the international community 
economically and politically, China would behave responsibly 
and abide by international norms and rules.
    This amoral, geopolitical, and short-term pragmatic 
strategy fails to comprehend the evil nature and hegemonic 
ambition of the Communist regime, as reiterated recently in Xi 
Jinping's China Dream of a great red empire, to replace the 
Western civilization with the so-called ``China Model.''
    Washington policymakers also failed to understand that 
economic growth may be a necessary condition, but not a 
sufficient one for cultivating democracy. Consequently, this 
policy has fundamentally undermined America's national 
interests and security.
    The alternative is to engage China with a moral and a 
strategic compass. China under the CCP's rule cannot rise 
peacefully, and its transition to a democratic country that 
respects human rights, the rule of law, freedom of speech and 
religion, is in everyone's best interest, including China's 
own.
    China's totalitarian regime has hijacked 1.3 billion 
Chinese people, imposing a political system on them by force 
and coercion and running the country like a slave owner of the 
past. It has obliterated their self-governance and controlled 
the people's lives without their consent.
    To support this regime is both morally corrupt and 
strategically stupid. Like Frankenstein's monster, China is now 
seeking revenge against its creator, the West. It will 
destabilize and endanger the world, for the China Model, better 
called the Chinese disease, like the Black Plague, has spread 
and infected the international community. But most people in 
the world are not aware of it, and many are being fooled to 
believe it is the future.
    Now, it is time for the United States to begin the era of 
an engaged China with moral and strategic clarity. To begin, 
the Congress should pass a China Democracy Act. It would be 
binding legislation flatly stating congressional judgment that 
the enhancement of human rights and democratic values in China 
is decidedly in America's national interest.
    That would preclude the currently widespread but inaccurate 
claim that Congress must abandon on one hand its claim to 
support a universal value of human rights and on the other hand 
America's national interest.
    The bill also would require a report from the President to 
Congress every year on how any government-approved policy or 
action during the prior 12 months has strengthened or weakened 
human rights and the democratic values in China.
    All federal departments of a government should have to 
report on what they are doing to foster democracy in China by 
advancing human rights and the rule of the law there. The Act 
also would put them on notice to take no action, adopt no 
policy, and implement no program that would undercut the 
democracy movement or weaken human rights in China.
    Such a China Democracy Act would give us a better idea of 
what success we have had so far, what costs have been, and how 
we should increase or deploy financial resources to promote 
democracy and human rights.
    If America expressly commits to strengthening those ideals 
and visibly implements that commitment, it will allow the 
people of China and indeed of the rest of the world to see that 
the words of Americans' promises to support liberty everywhere 
are fully matched by its deeds.
    Thank you.
    Chairman Smith. Dr. Yang, thank you so very much. And 
without objection, your full statement, which is very 
extensive, will be made a part of the record, as well as all of 
our witnesses'.
    I would like now to welcome Wei Jingsheng.
    [The prepared statement of Mr. Yang appears in the 
appendix.]

    STATEMENT OF WEI JINGSHENG, CHAIRMAN, OVERSEAS CHINESE 
                      DEMOCRACY COALITION

    Mr. Wei [through interpreter]. Thank you, Mr. Chairman.
    After Xi Jinping took over power, much illegal government 
behavior that existed in the past is even more widely used now 
and is becoming the norm. I am only going to talk about one 
example; that is, the illegal detention in the name of 
residential surveillance.
    In early 1994, after I met with Representative Chris Smith 
and then-Senator John Kerry and before my meeting with then-
Secretary of State Warren Christopher, the Chinese police 
illegally detained me for as long as 18 months.
    According to China's Criminal Procedure Law, subpoenas 
cannot exceed three times in a row. After I was detained for 
three days, I asked them, either come up with a legitimate 
arrest certificate or release me.
    They said the Procuratorate would not give them the arrest 
warrant, while their superiors ordered them not to release me, 
so they would use residential surveillance, which does not need 
the approval of the Procuratorate. Further, they did not have 
to notify the family in accordance with the law, with no time 
limit.
    I said, this is illegal detention. They replied, the 
highest authorities in the government had approved this 
conduct, and they were just executing it with no 
responsibilities. As far as I was not detained in the prisons 
and detention centers, that would be counted as residential 
surveillance.
    Nineteen months later, when they put me on trial, I 
requested them to count 18 months of residential surveillance 
as part of my sentences. However, the court answered explicitly 
that because there was no legal basis for this period, the 18 
months cannot be credited into my sentence.
    According to the clear statement in China's Criminal 
Procedural, that would be called illegal detention, yet that 
illegal detention was a detention that was approved by the 
highest authorities in the Chinese Government.
    This kind of illegal detention is now being widely used as 
jurisprudence in China. It is not only being used against 
political dissidents, but also widely used against any Chinese 
citizens which the officials are dissatisfied with.
    Any level of the government can take advantage of this form 
of detention to illegally hold citizens they dislike and then 
implement torture for the deposition they want. This 
residential surveillance forms the legal basis for Xi Jinping 
to maintain the one-party dictatorship, and then carry out his 
personal dictatorship.
    On the basis of this illegal residential surveillance, the 
Chinese Communist Party launched the so-called ``double 
designated system.'' The purpose is to force illegal detention 
of certain Communist Party members with restricted personal 
freedom by the Central Commission of the Discipline Inspection 
of the Chinese Communist Party.
    What this illegal detention covers includes the top 
leadership of the Chinese Government and the Communist Party, 
even the Politburo Standing Committee, which only has seven 
members. That is to say, except for Xi Jinping, all people have 
the possibility to be illegally detained, including American 
citizens in China. This is a downright personal dictatorship.
    I suggest that when President Obama meets with Chairman Xi 
Jinping, he should make restoring the rule of law, abiding by 
the law, abolishing all forms of illegal detention and torture 
one of the main themes of their negotiations, rather than 
perfunctory generalities of human rights.
    When Xi Jinping visits the U.S. Congress, the lawmakers 
should also apply pressure to Xi Jinping on these issues in 
order to promote human rights in China as well as to protect 
hundreds of thousands of U.S. citizens in China and their 
rights and their interests.
    Thank you.
    Chairman Smith. Thank you so very much, Mr. Wei.
    I would like to now invite Mr. Shohret Hoshur to provide 
his testimony.
    [The prepared statement of Mr. Wei appears in the 
appendix.]

   STATEMENT OF SHOHRET HOSHUR, JOURNALIST REPORTING NEWS IN 
 CHINA'S XINJIANG UYGHUR AUTONOMOUS REGION FOR RADIO FREE ASIA

    Mr. Hoshur. Thanks, Mr. Chairman, for inviting me to speak 
at this hearing on Xi Jinping's visit.
    I am going to speak about my situation and my family's. For 
the sake of expediency, my translator will read my statement in 
English.
    Mr. Hoshur [through interpreter]. I came to the United 
States in 1999, almost five years after leaving my homeland in 
China's far western Uyghur region in 1994. The journey that 
took me away from my family did not begin by choice. I left to 
escape the wrath of local Chinese authorities who deemed two of 
my writings for local Uyghur-language newspapers as subversive.
    I was a journalist for Qorghas Radio and Television, a 
local media outlet in the Xinjiang Uyghur Autonomous Region 
when I decided to write two pieces about Beijing's harsh 
oppression of Uyghurs.
    The choice I made then upon leaving China, as now, was to 
never give up being a reporter covering the Xinjiang Uyghur 
Autonomous Region. To give that up would mean that a remote 
part of the world and its people, the Uyghurs, would lose one 
of their only lifelines to reliable news and information about 
what is happening in their own neighborhoods and communities.
    When I began working for Radio Free Asia in 2007, it was a 
great opportunity to continue work that is badly needed, but it 
was also an opportunity seized by Chinese authorities as they 
began to harass my family.
    As my reports for RFA began to be heard by Uyghurs 
listening on shortwave radio and reading my stories on the Web, 
authorities wasted little time in making it clear to my 
family--and to me--that they would one day pay a price for my 
journalism.
    For the next several years, as China ramped up its security 
clampdown in Xinjiang, violence intensified and grew more 
frequent. But China's state-controlled media rarely reported on 
these deadly incidents. Radio Free Asia disclosed the majority, 
often through my reports.
    The threats against my family--and, by way of my family, 
me--became more frequent and grave during this period. They 
culminated last year when all three of my brothers were jailed. 
My younger brother, Tudaxun, was detained in April before being 
tried in court and sentences to five years in prison. He was 
charged with endangering state security.
    My two other brothers, Rexim and Shawket, talked with me 
about Tudaxun's situation on the phone in June. I tried to 
comfort them when they grew understandably emotional. I told 
them that in time the situation might improve.
    The next month, in July, a Chinese daily newspaper, the 
Global Times, ran a story attacking Radio Free Asia for its 
coverage of violence in Xinjiang. Though I wasn't named, the 
article cited my June phone call with my brothers, which had 
been intercepted by state surveillance.
    In August 2014, local authorities also detained Rexim and 
Shawket. Their families have not seen them since. They were 
later charged with leaking state secrets--I believe, largely in 
connection with that phone call with me in June.
    They were also charged with endangering state security. 
When it became clear that the authorities were not going to 
release them, I reached out with the help of RFA to the 
Committee to Protect Journalists, which issued a press release 
about my brothers' situation in January 2015.
    The case received wide attention in global media and 
interest here from the U.S. Government. Their families and my 
sister were informed of their cases being reopened by 
authorities--hopeful news in China, where a prosecutorial 
office almost never calls for the reopening of a case submitted 
by police.
    But our hopes soon dimmed when it became obvious, despite 
this development, that my brothers were to remain behind bars. 
Eventually, after the postponing of several court dates that 
came after inquiries from the U.S. Department of State to 
Chinese officials in the embassy here in Washington and 
overseas in Beijing, their separate trials were finally held 
this past August at the Urumqi Intermediate Court.
    They now await their verdicts, which the judge told their 
lawyers would be issued by the Chinese Political and Law 
Council, Zhengfawei. These could come in two months, putting 
them after President Xi Jinping's state visit to Washington.
    Today I am here to ask for officials in the U.S. 
Government--my government--and the administration to raise this 
case with President Xi next week. My family only wants to be 
left alone, free from persecution by local authorities. They 
want to live their lives as citizens of a country that respects 
their wish to be husbands and fathers looking after their 
families.
    I know my case is not unique. Many of my colleagues at 
Radio Free Asia with relatives in China also have faced 
retribution and harassment. But I hope my testimony today helps 
to ensure that the United States will continue stand up for 
people like me who came to this country in hope of having the 
freedom and rights we did not have in our homelands.
    Thank you.
    Chairman Smith. Thank you very, very much.
    We will now go to Mr. Gutmann.
    [The prepared statement of Mr. Hoshur appears in the 
appendix.]

 STATEMENT OF ETHAN GUTMANN, CHINA ANALYST AND AUTHOR OF ``THE 
SLAUGHTER: MASS KILLINGS, ORGAN HARVESTING, AND CHINA'S SECRET 
              SOLUTION TO ITS DISSIDENT PROBLEM''

    Mr. Gutmann. Thank you for inviting me to participate in 
this profoundly important hearing.
    In order to piece together the story of how mass organ 
harvesting of prisoners of conscience evolved in China, I spoke 
with medical professionals, Chinese law enforcement, and over 
100 refugees. My interviews began in 2006 and my book, ``The 
Slaughter,'' was published last year.
    Now, I was not the first to examine this issue in depth. 
That distinction belongs to David Kilgour and David Matas, the 
authors of the seminal ``Bloody Harvest'' report of 2006.
    Nor will I be the last. The World Organization To 
Investigate the Persecution of Falun Gong, a group of Chinese 
investigators scattered throughout the world, have just 
completed their own study.
    Based on our collective evidence, here is a brief timeline 
of what we know.
    In 1994, the first live organ harvest of death-row 
prisoners was performed on the execution grounds of Xinjiang, 
in northwest China. In 1997, following the Ghulja massacre, the 
first political prisoners, Uyghur activists, were harvested on 
behalf of high-ranking Chinese Communist Party cadres.
    In 1999, Chinese State Security launched its largest action 
of scale since the Cultural Revolution: the eradication of 
Falun Gong. In 2000, hospitals across China began ramping up 
their facilities to what would become an unprecedented 
explosion in China's transplant activity. And by the end of 
that year, well over 1 million Falun Gong practitioners were 
incarcerated in labor camps, detention centers, psychiatric 
facilities, and ``black jails.''
    By 2001, Chinese military hospitals were unambiguously 
targeting select Falun Gong prisoners for organ harvesting.
    By 2003, the first Tibetans were being targeted as well. By 
the end of 2005, China's transplant apparatus had increased so 
dramatically that a tissue-matched organ could be located 
within two weeks for any foreign organ tourist with cash on 
hand.
    While the execution of death-row prisoners, hardened 
criminals, supplied some of the organs, the majority were 
extracted from Falun Gong practitioners, and this was a fact 
that was not even being kept all that secret from the prison 
population, visiting foreign surgeons, or potential customers. 
Kilgour and Matas estimate 41,500 transplants were sourced from 
Falun Gong between 2000 to 2005. I estimate 65,000 Falun Gong 
practitioners were murdered for their organs from 2000 to 2008. 
The World Organization To Investigate the Persecution of Falun 
Gong believes the numbers are more likely in the hundreds of 
thousands.
    In early 2006, the Epoch Times revealed the first 
allegations of the organ harvesting of Falun Gong and was 
following by the Kilgour-Matas report.
    By 2008, many analysts, and I was among them, assumed that 
the Chinese state would stop harvesting prisoners of conscience 
for fear of international condemnation during the Beijing 
Olympics. Yet the physical examination of Falun Gong prisoners 
for their retail organs actually showed a slight uptick.
    In 2012, Wang Lijun, Bo Xilai's right-hand man, attempted 
to defect at the U.S. Consulate in Chengdu. Two weeks later, 
the World Organization To Investigate the Persecution of Falun 
Gong revealed that Wang had personally received a prestigious 
award for overseeing thousands of organ extractions and 
transplants. Fatally exposed, Chinese medical authorities 
declared to the Western press that they would cease organ 
harvesting of death-row prisoners over the next five years. Yet 
no mention was made of prisoners of conscience, and third-party 
verification was rejected.
    It is during this period from 2012 to the present day, even 
as the Chinese medical authorities spoke publicly of shortages 
due to relying on voluntary organ donation, that a very strange 
anomaly occurs. While China's hospitals have maintained strict 
Internet silence on their transplant activities since 2006, the 
hiring of transplant teams at many of the most notorious 
hospitals for harvesting prisoners of conscience is actually on 
the increase. In a handful of hospitals--for example, Beijing 
309 Military Hospital--it is practically exponential.
    Witness accounts shed some light on this mystery. One spoke 
to me about 500 Falun Gong prisoners having been examined for 
their organs in a single day--the largest cattle call that I 
know of. A Western doctor was recently assured by a Chinese 
military hospital surgeon that prisoners are still being 
slaughtered for their organs. And Falun Gong practitioners 
across China's provinces have described police forcibly 
administering blood tests and DNA cheek swabs--not in prison, 
not in a detention center, but in their homes.
    I cannot supply a death count for House Christians, 
Uyghurs, and Tibetans, but if I had to make an estimate on 
Falun Gong, I would double my previous numbers. I am sure the 
World Organization to Investigate the Persecution of Falun Gong 
would go much further. Either way, two points are clear:
    The official number of Chinese transplants per year, 
10,000, is a fiction; the real number is likely three times 
that. And the serious public declarations by the Chinese 
medical establishment of a new ethical environment for 
transplantation is simply a privacy shield to murder prisoners 
of conscience.
    What can we do? We are not the moral arbitrators of this 
tragedy, but neither is the World Health Organization or the 
Transplantation Society. The moral authority belongs to 
families across China who have lost loved ones. Until we can 
hear their voices, we need at a minimum to follow our 
convictions.
    I am not a lawyer, but in my layman's understanding, 
medical privacy ends when there is a gunshot involved. Why then 
do we adhere to strict medical privacy when there is an organ 
sourced in China? Why can't we even make a proper estimate of 
how many Americans received transplants in China? Why do we 
have to make guesses based on a humorous, feel-good account 
like ``Larry's Kidney? ''
    This is an obscenity. For an American to go to China for an 
organ in 2015 is to participate in an ongoing crime against 
humanity. So I ask you to remove our privacy shield. And until 
the Chinese state offers the full and comprehensive accounting 
that the world demands, I ask you to follow the example of two 
very small but brave countries--Israel and, now just recently, 
Taiwan--and ban organ tourism to China.
    Thank you.
    [The prepared statement of Mr. Gutmann appears in the 
appendix.]
    Chairman Smith. Thank you very much.
    I would like to now yield to Commissioner Cotton for any 
questions he might have.
    Senator Cotton. Thank you all for your very powerful 
testimony. I would like to start by exploring the trajectory of 
state-sponsored human rights abuses under Xi Jinping and my 
office's conversations with Freedom House. They have indicated 
that under Xi, China's oppression has worsened across 13 of 17 
categories.
    It sounds as if many, if not all of you, would agree. Some 
of you have said it is as bad as it has been in 20 to 26 years. 
I would like to ask why. Why do you think China's human rights 
record has deteriorated so badly under Xi's regime?
    And we can just start with Dr. Teng and maybe move down the 
panel.
    Mr. Teng. Briefly, two points. First, Xi Jinping is 
different from other Party leaders. He never accepted the 
Western ideas of human rights or democracy. And he is a 
princeling and he wants to keep the one-party rule.
    Second, what Xi and the Communist Party is facing is the 
comprehensive crisis, the political crisis within the Party, 
the social crisis, the conflicts between the people and the 
local governments, and the environmental crisis and the growing 
civil society.
    So he is so nervous about the possible color revolution, 
and he must feel that if he does not issue the severe crackdown 
on the human rights movement or the civil society, he may lose 
control and the Communist Party may lose power.
    Thank you.
    Senator Cotton. Mr. Wei?
    Mr. Wei. I think that the most important reason is because 
the 30-year period of reform led by Deng and followed by Jiang 
Zemin and Hu Jintao has reached an end. And China is right now 
in a crisis, both in politics and the economy.
    When Xi came into power, he faced a choice, whether he 
should continue the road and heading to the road of the former 
Soviet Union and Taiwan, evolving China into a democracy, or 
returning back to the era of Mao. It seems like he chose the 
road to Mao.
    So the two years' rule by Xi Jinping can best be 
characterized as a Mao-style ruling of China. But obviously 
there is resistance from all directions. But one thing is sure; 
he is facing another choice.
    The moment for President Obama to put some pressure on Xi 
Jinping could lead to some surprise.
    Senator Cotton. Mr. Yang?
    Mr. Yang. We all know Xi Jinping is a second generation of 
their revolutionary--Communist and revolutionaries. And he came 
into power with a very strong sense, much stronger sense than 
his predecessors, that he must do everything possible to keep 
the Red Empire.
    Because coming into power made the atmosphere in which 
everybody thought he would be the last one, last emperor. So he 
tried to do everything against the wave.
    And two things can topple the regime. One, corruption, 
which is internal. The other is democratization. So once he 
came into power, he actually did two things inside China. One, 
anti-corruption, but it is selective. Mainly it is for 
consolidating his power, cleansing his competitor, power 
competitor in the power struggle.
    And as he is doing this, he is really, really worried that 
people will join in. Because people have great hatred against 
those corrupt officials. And of course, he understands opening 
up freedom of speech, of press and let people join in would be 
the best way to curb corruption in the power, but he would not 
do it, because he is very careful not to let the people's power 
grow, which can also topple the regime.
    So another reason, I think, ever since Xi Jinping became 
the ruler of China, the human rights record has been 
deteriorating. It is the Western democracies; we have to find 
some wrong policies toward China.
    Ever since Obama became president, he stopped the old 
practice which each of his predecessors had done, ever since 
the Tiananmen Massacre. That is release the prisoners in 
whatever meeting with China's leaders and press China to 
release these prisoners. I just gave you one example. He has 
stopped this practice.
    Let us give China a very clear signal that he would not 
care so much as others about human rights situation in China. 
And on her first trip to China as Secretary of State, Hillary 
Clinton said clearly, publicly, openly that the human rights 
issue cannot interfere with other issues, you know, the United 
States will have cooperation with China.
    So this message has been the wrong message. The Chinese 
leaders now understand better than they used to in the 1990s 
about how the game is being played in this country. If you do 
not match your words with your deeds, they know how to play 
with you.
    So they know you are sincere, so they can do whatever they 
do. I think largely the China human rights record is so bad, 
largely because of an appeasement policy from Western countries 
like the United States.
    Thank you.
    Senator Cotton. Thank you.
    I'd like to follow up that question with one other 
question--Mr. Wei alluded to this--is the growing economic 
crisis in China, particularly over the last three months as the 
Chinese Government has made extraordinary efforts to intervene 
in their marketplaces, to apparent failure time and time again.
    Unlike our country, where an economic crisis may turn a 
person or a party out of office, in China, given their self-
proclaimed ability to manage the economy, this could lead to a 
political crisis that questions the legitimacy of the entire 
regime.
    I would like to hear your perspectives on what this 
economic and perhaps political crisis could mean for the coming 
future of the human rights condition in China.
    Mr. Xiao. I am interested that you raised this question 
with the concept of legitimacy, because this is indeed a rising 
concern in the Chinese society, both on public opinion and 
apparently among the Chinese leadership, that I quote recent--
it was the first time Xi Jinping, the right-hand man, Wang 
Qishan, also Standing Committee member, in the public speech, 
first time for the Chinese Communist leaders mentioned the word 
legitimacy.
    He self-volunteered to answer the question, the legitimacy 
of Chinese Communist Party rule in China, and he simply said, 
because in his historical choice of people.
    That, obviously, did not answer the question, because as 
Internet and public opinion emerges, simply say well, even we 
have chosen you, but that was 60 years ago. Have we given any 
other chances to choose again? Other countries choose every 
four years, maybe, and we never had another chance.
    This legitimacy question is relating to the bankruptcy of 
the ideological control of the Communist Party, and that can be 
watched clearly on the Internet. There is more and more--
despite all the censorship and the propaganda, there are more 
and more people aware that the fundamental questions of who the 
government represents, of what a taxpayer's rights are, and 
what is rule of law and an integral system of freedom of 
expression. And these even--linking to the question of 
legitimacy of Communist Party rule.
    So when the ideological control is weakened and then there 
is economic downturn, or slowdown, and then that could lead the 
political crisis.
    But I want to add one more thing, which is how the Party 
will address this question of legitimacy if the economic growth 
is not strong enough to support it. The answer is simple, but 
it could be terrifying, which is extreme nationalism.
    And history has told us--that it is not hard to imagine 
that in order to deflect a crisis of legitimacy particularly 
and the ruler, particular dictators will use the nationalism to 
indicate the extreme--and even creating crisis and external 
issues and conflict in order to consolidate the internal 
support and a repression.
    Mr. Yang. Just to follow up Xiao Qiang's comment--sorry, 
Mr. Wei--I agree with him. So as China--CCP's rule in China has 
had two sources of illegitimacy. One, fast economic growth, 
which is now in question. The other one is nationalism.
    When China's economy now has taken a downturn, the regime 
automatically will choose to mobilize more nationalism, the 
sentiment among the ordinary people. So this is the time they 
need an external enemy most.
    In other words, it is a critical moment for the United 
States to come up with the right foreign policy toward China. 
It is a critical moment.
    Mr. Wei. Mr. Xi is facing a major problem in economy, 
especially after the crash of the stock market which resulted 
in a lot of people's dissatisfaction.
    On the other field of his anti-corruption campaign, he is 
doing too much. His personal initiative is creating a lot of 
backlashes from the class of high-ranking officials, thus a 
political crisis.
    So he is facing a choice. One choice is to still push ahead 
on the hardline strategy which will soon bring him much more 
problems and a collapse is possible.
    The other possibility for him to choose is to yield to the 
people, to the bureaucracy, and to foreign powers so that he 
can peacefully go on.
    It seems to be the right moment for the United States to 
put on some pressure to demand some human rights improvement. 
Actually, I would guess he might be thinking to do so, but he 
needs some reasonable excuse.
    Obviously, in his trip to the United States he will ask 
cooperation from the United States in the economic field, then 
the United States could make its own demand on him. That is not 
a bad thing for the United States either.
    So if we put some effort into pushing him to human rights 
improvement, the result can be beneficial to both sides.
    Senator Cotton. Thank you all for your insightful answers 
and for your compelling testimony, and thank you most 
importantly for the bravery of your advocacy for the rights of 
all men and women and children living in China.
    Mr. Chairman?
    Chairman Smith. Thank you.
    And before I go to my questions, I want to thank Senator 
Cotton for being here and most importantly for his service. He 
served in both Afghanistan as a combat veteran and Iraq, five 
years in active duty, received the Bronze Star. He graduated 
from Harvard University Law School, and first served in the 
House for a brief stint and then jumped over to the big house 
in the U.S. Senate. And we are just delighted as a Commission 
to have his expertise and incisiveness on this Commission. So 
thank you, Senator. We really appreciate it.
    I would like to go to some questions now, if I could, 
beginning first, Dr. Yang. You mentioned, and I think very 
appropriately, that 26 years ago you strongly admonished 
Congress, the President, to link human rights with MFN and 
trade and to make it very clear and unambiguous to Beijing.
    I traveled soon after Tiananmen Square, got into Beijing 
Prison Number One, where concentration camp-looking 
incarcerated individuals, 40 of them from Tiananmen Square, 
were being held, and was told that they are all eating all that 
they could possibly want. It was one big Potemkin village. And 
then a couple of years later, I met with Wei Jingsheng when he 
was let out briefly, but then was rearrested.
    We did not listen. As you point out, it fell on deaf ears. 
First with Bush One and then, I think infamously, with Bill 
Clinton. Bill Clinton seemed to get it. He linked most-favored-
nation status with human rights and then gave it a year. We had 
the votes, we believe, in the House and Senate to strip MFN 
from the People's Republic of China, but primarily because of 
Tiananmen Square and the ongoing crackdown. And then the 
President first linked and then delinked.
    And I think, as you pointed out, they look at our words, 
but they especially look at our actions. And when they are 
inconsistent, when they are compromised, when they are 
hypocritical, claiming human rights and then saying, on a 
Friday afternoon, which is when he delinked it, May 26, 1994, 
everybody in this building, almost like today--at the end of 
the day on a Friday, people do tend to head back to their home 
districts--he delinked.
    And the news cycle was over. I did a press conference, C-
SPAN carried it and said, ``We have chosen profits over human 
rights. It is to the detriment of every Chinese man, woman, and 
child, but also to ourselves.''
    Every area of human rights will probably--and they have, as 
I said--and I was not the only one; you and others said it--
will deteriorate, including the one-child-per-couple policy, 
religious freedom, and all the others.
    And yet today you are suggesting that there might be an 
opportunity; it is not too late. And I would ask you, if you 
would, to elaborate on that a bit.
    You know, we are looking at Xi Jinping as someone who 
admires the excesses of Mao Zedong and seeks to emulate him in 
some way. That is frightening in the extreme, for the Chinese 
people who suffer so horribly under his cruel boot.
    Let me also ask a few other questions and then I'll yield 
for answers, if I could.
    The big issue of the summit, the reason why this hearing is 
being held today. We are not in session Monday or Tuesday. 
Wednesday the Pope will be coming in, and Xi--we have a great 
man coming in and then a man who has committed atrocities 
against his own people by the name of Xi Jinping.
    I would hope, and I would make the appeal, as did the 
Washington Post, that at Lafayette Park, those who gather in 
peaceful protest be given that opportunity to express 
themselves. We, as a Commission, join you in asking the White 
House.
    I hope they don't hide behind a Secret Service analysis 
that might have a political aspect to it, make it not happen 
because Xi won't like it. I've been at the White House for 
protests against others who have been there. Why not allow 
this? Because certainly Lafayette Park is sufficiently far 
enough away to--there is a large buffer zone.
    But that presence, that witness for human rights and 
democracy needs to be there. And I would appeal to the 
President, and we are appealing to the President to intervene 
and make sure that happens.
    I would point out, and I am worried, Wei Jingsheng, in his 
statement, talked about, and I thought he phrased it so well, 
that rather than the perfunctory generalities of human rights, 
when he meets with the President and Xi Jinping, it ought to be 
all about restoring the rule of law, abiding by the law, 
abolishing all forms of illegal detention and torture as main 
themes of their negotiations.
    Well, we could hope, but I am not holding my breath. And I 
think that is tragic; that the President of the United States, 
who has won the Nobel Peace Prize, does not, in a bold but 
civil tone, promote the agenda of human rights with Xi Jinping.
    And publicly, the fact that Liu Xiaobo remains 
incarcerated, his wife suffering in the way that she is, and 
thousands and thousands of other political and democracy 
activists and religious prisoners, is an atrocity. A Nobel 
Peace Prize winner at the White House, Obama should at least 
raise the cases of Liu Xiaobo and many others.
    I would remind my colleagues and our witnesses--and this is 
a revelation into priorities--we had a hearing some years ago 
that we called the ``Five Daughters.'' We had the five 
daughters--you all might remember it. It was a great hearing. 
Five of the daughters of dissidents, including Gao Zhisheng 
testified. And at the end of their testimony, they asked the 
President, ``we would like to meet with you to talk about our 
dads.''
    And one of the girls, young women, said, ``He is the father 
of two girls, two young daughters whom he loves dearly--he will 
get it. He will understand it.''
    We tried for months to get a meeting with the President of 
the United States--not with me; I will never get that, and that 
is the way it goes--but for these five daughters. Fifteen 
minutes, and we got word back that he did not have the time.
    If you say you do not have the time for something, you have 
not stated a fact; you have stated a priority. And the priority 
was not to meet with these five extraordinary young women.
    So we make that appeal again to meet with the five 
daughters, to meet with a group of dissidents, the people at 
this table, all of you, eyeball to eyeball with the President 
to talk about what you know and have such profound information 
concerning the human rights situation, whether it be among the 
Uyghurs, the Falun Gong, all the different aspects that you 
have brought to this table today. So that is a missed 
opportunity.
    Let me just ask Mr. Xiao, we had hearings about a decade 
ago, a little less than a decade ago, on Google, Microsoft, 
Cisco, and Yahoo!--on their complicity in censorship and 
surveillance. You remember it quite well. You helped us with 
that back then.
    And I swore all of them in. We asked them questions and 
they said they were just following Chinese law as they were 
surveilling the good people of China as they went on the 
Internet.
    We know that Google is returning to China, and it has 
agreed to allow censorship. They are right back into enabling a 
dictatorship. And they also have to keep their user information 
in China which allows, as we saw with Yahoo! when they were 
there, in Shi Tao the ability to round up the dissidents just 
by going to the databases.
    I thought Yahoo!, which has left, did the right thing in 
Vietnam when they put those servers, those vaults of 
information, outside the reach of the Vietnamese Government, 
which also does that kind of misuse of names and Internet and 
the like.
    So if you can speak to that issue of what is happening. We 
know Baidu is doing a lot and others that have probably crowded 
out the Googles of this world, but they are going back now, 
Google, Google Play, and that is very disturbing, in my 
opinion.
    And I am worried about Facebook. When they all start, for 
the sake of making money, conforming to these aggressive, 
enhanced rules of surveillance, I think they are worse now than 
they were 7, 8, 9, 10 years ago. I think that is certain.
    That is some opening questions. I do have a few more, and 
so if you could begin with those.
    Mr. Yang. Thank you for your question. I remember the day 
President Clinton reversed the policy dealing with human 
rights, the MFN vis-a-vis human rights. That was the beginning 
of what I call the year of engagement without moral and 
strategic clarity.
    And I describe it as compartmentalization of U.S. policy 
toward China, one opposing another, and people automatically 
naturally will choose not to care for human rights because it 
is difficult. The cause--is difficult.
    So the fact is that everybody tries not to touch this issue 
when they have a meeting with Chinese leaders or engage with 
China. That is how the disaster began.
    I think it is never too late to correct this mistake. And, 
now I think it is time to end the year of engagement with China 
without moral and strategic clarity and begin the year of 
engagement with moral and strategic clarity.
    First off, we must have integration of a policy throughout 
our dealings with China. Everything has to come together.
    Engagement with China, whoever does it, whichever 
government organization or department, must take care of human 
rights. So this is the first thing we must call for.
    And I remember Senator Rubio issued a statement on the 26th 
anniversary of the Tiananmen Massacre. He said clearly that he 
supports integration of U.S. policy toward China; you cannot 
pit human rights against other policy issues. I fully agree 
with that.
    In my opening remarks, I called for a China Democracy Act 
which is a law that clearly states it is in this country's 
interest to advance human rights and democracy in China.
    China's government has tried very hard to distract people 
like us, the China Democracy Movement, with a claim of American 
policy providing secret assistance to us. I wish that were the 
case, but there is no such thing.
    So why such a thing is important? Because it usually takes 
four things to be present at the same time for a transition to 
take place in an autocratic society.
    One is a robust, generous discontent with the regime, which 
is now lacking in China, according to the report today. You can 
see it very clearly.
    Another is cracks in the top leadership, which is going to 
happen. It is happening, so I do not want to talk about it now.
    The third is a viable democracy movement, an opposition 
movement, which we try very hard to build up. And if U.S. and 
other strong democracies have such a policy to help us build a 
viable democracy movement, that is vitally important.
    The fourth thing is international recognition of the moment 
of transition. In 26 years, we have the first three, but not 
the international recognition. The moment has come, so we lost 
the opportunity. So I think it is very important.
    The Obama administration has sent too many wrong messages 
to the dictator in China. This time, again, it is very 
alarming. And I am one of the organizers of the 25th rally in 
Lafayette Park. In two meetings with the Park Service, they 
could not confirm with us whether we will be able to use the 
park to have our rally.
    And I have organized in past years many, many rallies in 
that very place. There was no restriction whatsoever. But this 
time it is different. I do not know how long we have to wait to 
get a confirmation either way.
    But this is the wrong message again. It is not a small 
matter. It is a terrible message, and that means that the Obama 
administration can even do the things like restricting the 
freedom of expression in this country. That is a wrong message.
    So it is unacceptable, actually, if Xi Jinping returns to 
China without having received a clear message from President 
Obama or from Congress or from the people of this country that 
he will not have the full trust of this government, of the 
people of United States, if he continues to mistreat his own 
people.
    Thank you.
    Mr. Xiao. I will respond to your second question. But 
actually, I also want to say a few things about your first 
question, because--and also Senator Cotton before, in his 
eloquent opening speech, also mentioned those points. I thought 
it was excellent.
    The point is that President Obama himself, he is a father 
of daughters and he is a Nobel Peace Prize winner. He is a 
constitutional lawyer, and he also is a Christian and--et 
cetera.
    If anyone, it should be him to feel more empathetic and 
feel the gross violations under the Xi Jinping administration, 
and with all these concrete examples right in front of him.
    So I really hope that personal message can be driven to him 
and it can be reflected in his personal meeting at Xi Jinping's 
state visit.
    The second point is about the technology companies, the 
U.S. technology companies--Google and Yahoo! and Microsoft--
Google in particular, because it generates lots of attention, 
that when they withdraw from China and now are thinking about 
returning to the Chinese market.
    I do believe it is out of the reason for making money as a 
company that is a commercial decision because, as I mentioned 
in my testimony, Chinese Internet users have been growing so 
large for commercial companies they are hard to ignore that 
market potential.
    However, the particular information and communication 
technologies for companies like Google is not just a commercial 
technology; it has implications in human rights and freedom of 
expression. And/or the other way, that it can enable the 
dictators, the repressive regimes, to violate further the human 
rights of their own people. Therefore, for those technology 
companies, there is a lot more at stake for human rights.
    I was, as Congressman Smith mentioned at the hearing when 
those executives of companies were making decisions--both in 
China and relating to human rights. And I remember the 
Congressman's words at that time, asking them powerful 
questions, thinking about the human dignity, the human rights 
in relation to its moneymaking. I remember how uncomfortable 
those executives were in their seats, sitting right next to me.
    Yes, this has been 10 years or so, and history will 
continue. It is the CEO of Google himself last year who wrote 
an article saying the censorship, Internet censorship, 
eventually will be obsolete. And actually, he did not say 
eventually; he said in 10 years. Because he believed technology 
will surpass that.
    Coming from the CEO of Google, I believe he said that with 
some kind of confidence and understanding of--the technology 
turns.
    However, they are returning to China, becoming part of the 
group of American leading-technology companies dealing with the 
Chinese regime, also telling us that they are looking at the 
short-term benefit, commercial benefit, much over the longer 
obligations and trend.
    So let me finish in this way. Maybe the business concerns 
their bottom line, but it is up to the government, it is up to 
the people, to hold the basic moral principle of human dignity 
and freedom. The American Congress passing the Internet Freedom 
Act and those kinds of laws and being an instrument can help us 
to protect the human rights through those technology transfers 
and exchanges and trade and curb the potential damage of the 
human rights violation, if those American companies engage 
inside of China.
    So I believe that kind of action from the government, from 
the Congress, is absolutely essential and critical.
    Chairman Smith. As you know, we have introduced the Global 
Online Freedom Act, but it has run into an enormous amount of 
opposition. But we will continue fighting for it, and I thank 
you for that.
    I would like to ask Mr. Hoshur, if I could, has the 
situation changed for the Uyghurs in China since Xi Jinping 
came to power, and if so, how?
    Mr. Hoshur. Thank you for this good question. I was 
actually thinking about it myself and was going to speak about 
the situation of Uyghurs.
    Since Xi Jinping came to power, the situation in the region 
has been worsening with the number of violent events taking 
place.
    Each time with the chance of power in China, Uyghur people 
are very hopeful for positive changes. But unfortunately, the 
Uyghurs in the region, they have not seen any positive changes. 
Instead, they see the very harsh crackdowns on the activities.
    In particular, they were talking about corruption, but the 
corruption is not the main concern for Uyghur people. The main 
concern is the hard oppression of the people.
    What is the other very important issue? It is the execution 
of prisoners and the sentencing of political prisoners and 
executing the people, the protesters, extrajudicial killings.
    Even with the example of my brothers being currently held, 
and this is all reflecting Xi Jinping's policies and harshness.
    Chairman Smith. I would like to ask Mr. Gutmann, do you 
think the U.S. Government reporting on the issue of organ 
harvesting has been sufficient? Have you found receptivity to 
your research at the U.S. Department of State? And what would 
be your recommendations to the U.S. Government and Congress on 
how to combat the problem of organ tourism?
    Mr. Gutmann. The first thing I would like to see is that 
the Department of State tell us exactly what Wang LiJun said 
during the 24 hours he was in the Chengdu consulate. I think 
everybody knows that something went on, and that he talked 
about organ harvesting. There cannot be any real question of 
this. But we don't really know what was said.
    Now, my theory--and I think it is an operating theory 
throughout Washington, really--is that he basically said yes, 
we have been doing this for some time. That he basically made 
some sort of confession. If that is not true, the State 
Department should tell us so. This is really important 
information. This is critical.
    The rest of that question I see as just typical 
bureaucratic inertia in Washington. And I understand that.
    If I can take the question to the current situation, 
following on what Wei Jingsheng was saying about how this is 
the time, with the Chinese economy on the ropes, this is the 
time to push on human rights. I have mixed feelings about this.
    One of the interesting things about being an outsider is 
that I can observe what is going on within the Falun Gong 
community and see the debates that go on in that community.
    There are two views right now about Xi Jinping and his 
leadership. One is the hope-springs-eternal side: Xi has 
possibilities, Bo Xilai is in jail, Zhou Yongkang is gone, 
Jiang Zemin is subject to lawsuits, and the whole ``Dead Hand'' 
faction is under attack. And they see all kinds of 
possibilities in this, and the feeling is that if the U.S. 
Government would just push, then we could get some answers.
    There is another view, which I think is more aligned with 
this report that I was showing you: Xi is expanding organ 
harvesting, and the facts on the ground seem to bear that out.
    Now there is also a synthesis view which I subscribe to: It 
is not the crime; it is the coverup. That is always the 
problem, yes? And we do have a coverup going on, and that can 
be more lethal. Think about it in extreme terms--when 
concentration camps were about to be overrun by Allied 
soldiers, the Nazis would kill prisoners and burn the place 
down. So for people in the Laogai System, this is actually a 
very dangerous time.
    Obviously that includes Uyghurs. We have seen the level of 
enforced disappearances of the Uyghur community go up. It is 
another exponential curve.
    Yet my view is ultimately a little different than any of 
these views. It is a very pessimistic view. This is a 
structural problem within the Chinese Communist Party. They 
will keep repeating these kinds of atrocities, and it is not 
the crime, but the coverup, and so it does not matter really 
who is in power, because they are always dealing with the last 
coverup. So it does not matter if Xi would like to end the 
persecution of the Falun Gong and Uyghurs and Tibetans. He 
cannot, because there are too many skeletons in the closet.
    And in that case, if that is true, then maybe the answer 
for Washington is, perhaps the best we can do is to at least 
limit our own moral decay in these areas.
    Take the Google situation--I have always argued that Google 
should not be in China. Google should be out of China.
    Cisco should have been completely banned from China. They 
should have been held to terms for what they did: surveillance, 
and they actually were assisting with a database that was used 
to arrest Falun Gong practitioners.
    But the same is true here, in the medical field. We are 
allowing this to just go on. We are allowing doctors--there are 
doctors in the transplantation society who are considering 
starting joint ventures in China. Yet this is a line the West 
cannot cross. That is my view. At least we can get to that. We 
cannot agree on everything when it comes to China, not in 
Washington, but we can agree on some basic moral principles. 
And these are basic moral principles. We sense that we are 
crossing a line. We know we are involved in some terrible way 
with the kinds of atrocities that have been described here 
today.
    Chairman Smith. If I could ask Dr. Teng, you laid out the 
fact that many of those who have been incarcerated are your 
friends. You said that Xi Jinping will not tolerate any 
challenge to the one-party rule. he is living in the 1960s, and 
the purge of the rights activists is awful, but it is getting 
worse.
    Has the U.S. Government really weighed in on this, from the 
State Department, U.S. Ambassador in Beijing, the Assistant 
Secretary for Asian Affairs and, of course, the President and 
Vice President? Have they spoken out in a way that has been 
heard by Beijing that this matters to us?
    I have always believed that human rights defenders, if they 
are eviscerated by a dictatorship, where would the people go 
then? There are religious people who fill in that gap and that 
role, but defenders are using the rule of law to the best of 
their ability.
    I remember in the Soviet Union, the Helsinki Final Act 
activists were raising international law, particularly the 
Helsinki Final Act, from Vaclav Havel, and I was in 
Czechoslovakia and met with people who were part of Charter 
77--they had a lot more lawyers. Some were clergy, the priests; 
some were lawyers.
    I was even in a prison camp, Beijing Prison Camp 35. And 
there was a man named Mikhail Koznikov who was a Helsinki human 
rights lawyer. And the Soviet officials did not know how to 
deal with him. He was citing chapter and verse.
    And so human rights defenders are really a first, second, 
and third line of defense. And when they are being purged 
systematically, there has to be an absolute, robust counter-
push on the part of democracies, including and especially the 
United States.
    Are we doing that, as a country? Is Obama doing it? State 
Department?
    Mr. Teng. Thank you. I know many international human rights 
organizations and the media have a lot of reports on the 
crackdown on rights lawyers and American State Department and--
Canada and many other countries have also issued some 
statements on this.
    And we really appreciate it, and it is good even though we 
have not seen any direct consequence of this statement of 
attitude.
    So I want to say first what the international community 
should do. It is not to say something, but do something up to 
that, do something directly and indirectly to give pressure to 
the Chinese Government to make sure these political prisoners 
are not tortured, make sure the Chinese abide by its own laws 
and regulations.
    And second, what Xi Jinping and the Communist Party is 
doing not only harms Chinese people, but is harming the free 
world, harming the United States.
    For example, Yahoo!, Cisco, Google, what they have been 
doing may be violating the freedom of expression. In California 
and other areas, Chinese dissidents were attacked by Chinese 
Government-hired hooligans.
    The Confucian Institutes and the Federations of Chinese 
Scholars and Students have done a lot to influence academic 
freedom negatively, and so many other things that the Communist 
Party tried their best to sell its value to the world.
    So the United States really should do something to protect 
its own freedom, and that is Obama and the Congress should not 
keep silent when meeting Xi Jinping.
    Chairman Smith. Anyone who would like to answer, if there 
is. Do you perceive a link?
    First of all, we invited you here because you are world-
renowned, world-class human rights activists, people who have, 
by your work, by your study, by your academic endeavors have 
made a huge difference. So when you speak, this Commission and, 
by extension, the Congress, hears you.
    Is there a link between human rights abuse, the 
deteriorating situation with regard to democracy, the crackdown 
on the human rights defenders and the growing animosity of 
China toward its neighbors, including the United States, but 
especially Japan and other countries that are in proximity to 
it?
    The work or the expansionism that we see going on in the 
South China Sea, the linkages with North Korea, especially with 
Iran, which is on a tear to get a nuclear weapon and under 
President Obama's agreement I think it is inevitable that they 
will get a nuclear weapon. It is a matter of when--and not if. 
It was not a well-honed--this is not the discussion for here 
and now; we have had numerous hearings on that.
    But they are in league with rogue nations everywhere, and 
teaching a bad governance model, but especially in the region, 
the threat of war by either miscalculation or by design. Your 
thoughts on that as human rights continually race to the 
bottom, like I said at the beginning, with North Korea.
    And if you would add to your answers, it is outrageous that 
Xi Jinping will be at the United Nations on September 27 
speaking about gender quality and equal rights for women when, 
in China, the Chinese women and girls are discriminated against 
like no other group of people in the world.
    I have been working and combating the one-child-per-couple 
policy since I first learned about it in my second term in 1983 
and offered numerous amendments to defund those organizations 
that aid and abet these atrocities against women.
    This is the 55th hearing that I have chaired on human 
rights abuse in China. We have had exclusive hearings just 
focused on the one-child-per-couple policy, we heard stories 
from women who were forcibly aborted.
    As you all know, China today has more suicides of women 
than any other country in the world, and the CDC, the Centers 
for Disease Control, in Beijing estimates 600 women per day--
per day, not week or month--per day, commit suicide.
    Well, when a member of the People's Congress was here 
visiting, I raised those issues with her and she went right 
into denial mode and ended the meeting. It was a meeting of the 
Foreign Affairs Committee, of which I am a member, and said, we 
cannot prove this. So I went and got the documentation and put 
it in her hands, and that was the end of that meeting. Her name 
is Fu. And she was very, very upset. I said, you are waging war 
against your own women.
    Now, the consequences from a human rights' point of view, 
from the breakup of the family and the military consequences of 
having more men--and who knows what the number is, tens of 
millions of more men than women--40 to 50 million men will 
never marry between now and 2020 because of the extermination 
of the girl child while in the womb through a course of 
population control and abortion.
    You are only allowed one. There is a boy preference, and 
all of you know that.
    But I think our Pentagon, I think our State Department, 
misses by a mile the implications for China remaining not at 
war and not in a dire strait because of the demographic 
nightmare that they are experiencing.
    One last point, and you might want to comment on this. I am 
the prime sponsor of the Trafficking Victims Protection Act. 
Every year a TIP [Trafficking in Persons] Report comes out. We 
have minimum standards of government complicity.
    The administration this year, again in a bogus way, gave a 
higher grade--they failed to recognize the explosion of sex 
trafficking in China, much of it attributable to the missing 
daughters of China and men who cannot find wives, and this 
disparity. And it is only going to get worse as that disparity 
continues.
    And yet Xi Jinping in a week will be at the United Nations 
talking about equal rights for women when he ought to be at The 
Hague being held for crimes against humanity and crimes against 
women for what he has done and continues to do to his own 
women.
    I do not know if Obama will mention it. I am not even sure 
he has ever mentioned it, and that is a missed opportunity.
    So if you would touch on some of these issues, if you 
would, as we conclude the hearing. But I think Wei Jingsheng, 
when I first met with him, he talked about the security issues 
and how we so misunderstand the intentions of the 
dictatorship--not the Chinese people, but the dictatorship and 
the animosities that have festered for years that go back to 
the Opium Wars, certainly Japan during their horrible 
atrocities committed against the Chinese people in World War 
II, all of that has festered.
    Now you have a disparity of boys and girls. Nicholas 
Eberstadt, the famous AEI [American Enterprise Institute] 
demographer, wrote a fascinating piece about what is to become 
of a country that is increasingly male and increasingly older? 
The economy, how does that continue when you have too few 
people supporting an elderly population and they all happen to 
be disproportionately guys?
    So if you could--any comments you might want on that, and 
anything else you would like to say before we conclude the 
hearing.
    Yes?
    Mr. Gutmann. I have just a very brief point which I think 
illustrates the global effect--a very direct effect.
    We know that Chinese surgeons have been going down to 
Vietnam. It is not clear who the invitation came from or 
whether they invited themselves, but we know they have trained 
several Vietnam hospitals in organ harvesting. And they have 
opened up a transplant industry in Vietnam that did not exist 
before.
    Now, a couple of months ago, we learned that ISIS, or ISIL 
if you prefer, has been harvesting the organs of their 
political prisoners. This is true. And this is simply evil 
unchecked. Because evil not remarked on will surely spread, and 
that is exactly what we are seeing in this case.
    Mr. Wei. I would talk about two issues. One is about the 
possibility of war. Not many observed but it is a fact the 
Chinese Communist Party is very good at constructing personal 
credit by war. Many Chinese generals today are still speaking 
of what Deng Xiaoping did in 1979 to have the war with Vietnam 
and built his authority quickly.
    At this moment, Xi Jinping is facing major problems in 
political and economic areas, and he is thinking about using 
war to resolve his crisis inside of China. If we cannot do 
anything to push him for the improvement of human rights in 
China, and if we do not see major improvement on economic 
issues, he may choose a war.
    I think that he personally should have already realized 
that his way toward Mao has failed, and now he has only two 
choices: Either he will yield more rights to the people or 
start another war.
    So we should remind Mr. Obama, if he wants to leave some 
historical mark, the best thing he should do is push Xi Jinping 
to improve human rights. Xi Jinping might consider to improve 
human rights, but he needs some exterior push.
    Mr. Yang. I have a few final comments. Number one, any 
leader cannot be trusted if he or she mistreats his or her own 
people, history has repeatedly told us thus far.
    Another comment is that Xi Jinping's state visit actually 
provides a unique opportunity for President Obama to leave a 
legacy, as Mr. Wei just mentioned. And he is a Nobel Peace 
Prize Laureate. He must remember there is another one. As we 
speak, he is languishing in a Chinese prison.
    And when we talk about women, his wife Liu Xia has been 
under house arrest for almost five years, ever since the 
announcement was made that her husband won the Nobel Peace 
Prize. So this is another woman who has been persecuted. It is 
just another example.
    And I think an important issue still remains how you match 
your words with deeds. Lip service does not do much. And the 
Chinese leaders and the Chinese understand the game.
    When you just provide lip service, they do not take it 
seriously. And very likely, after Xi Jinping leaves, returns to 
China, President Obama and the White House will release a 
statement saying how the human rights issue was raised during 
the meeting. We express our concern. Who knows? Who knows?
    Now what we want President Obama to do is openly commit 
himself. We want him to openly do the things that he should do 
so that people can hold him accountable.
    It is time to bring diplomacy from dark to light.
    Thank you.
    Chairman Smith. I want to thank each and every one of you 
for your expert testimony, for your passion for human rights 
and democracy, and it really has helped this Commission know 
exactly where we are and what we ought to be doing, and I thank 
you for that.
    Then without objection, a statement by Cochairman Senator 
Rubio will be made a part of the record, his opening comments, 
so ordered. And again, I want to thank you again for being here 
today.
    This hearing is adjourned.
    [Whereupon at 4:07 p.m. the hearing was concluded.]

                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


                    Prepared Statement of Teng Biao

           Why Xi Jinping is Purging China's Rights Activists

                           september 18, 2015
    Since July 9 2015, nearly 30 human rights lawyers have been 
kidnapped or arrested, most of them are my close friends. At least 300 
lawyers or activists have been questioned or released after a short 
detention.
    This ongoing persecution is only a small part of Xi Jinping's 
comprehensive crackdown on civil society. Since Xi came to power in 
late 2012, at least 2000 human rights defenders have been detained or 
sentenced, including Uyghur scholar Ilham Tohti and his students, 
Journalist Gao Yu, lawyer Xu Zhiyong, Pu Zhiqiang, Tang Jingling, Li 
Heping, Sui Muqing, Zhang Kai, Wang Quanzhang, Wang Yu, rights defender 
Guo Feixiong, Liu Ping, Zhang Shengyu, Su Changlan, dissident Qin 
Yongmin, Zhang Lin, Jiang Lijun, Hu Shigen, Yu Shiwen, Pastor Zhang 
Shaojie, etc. Some prisoners of conscience died in detention, obviously 
out of torture or inhuman treatment, like Cao Shunli and Tenzin Delek 
Rinpoche.
    In Zhejiang and other provinces, government destroyed thousands of 
church buildings, arrested pastors and Christians, demolished the 
crosses. Falungong practitioners were detained or sent to legal 
education centers, a kind of extra-legal detentions--many of them have 
been tortured to death. Other small religious groups are persecuted 
after the government listed them as evil cults.
    Many NGOs have been shut down, like Gongmeng (the Open Constitution 
Initiative). Even many NGOs focusing on Environment, women's rights, 
LGBT, labor rights or citizen libraries are not allowed to work.
    The CCP made new regulations or policies on high education and 
ideology. More censorship on internet, textbooks, publishings and 
traditional media. Document No.9. Seven don't talk. Mass line. Military 
parade. Fundamentalist Communism--Xi seems to be very keen on bringing 
back Maoist style discourse and cult of personality.
    The Chinese communist authorities, with their excessive violence, 
have created hostility, division and despair in Xinjiang and Tibet. In 
Xinjiang, many protests were labelled as terrorist attacks thus many 
Uyghur people were shot dead without any necessity and legal basis. In 
Tibet, the number of self-immolation has been 147, and 126 Tibetans 
have lost their lives. 79 self-immolations happened since November of 
2012 when Xi came into office. Some family members of the self-
immolators were even detained or sentenced.
    Why Xi is purging the rights activist?
    Xi is somebody living in 1960s. He never accepts the ideas of 
liberal democracy or constitutionalism or human rights. What he has 
been doing and is going to do, is to maintain the CCP's monopoly of 
power. He will not tolerate any challenge to the one party rule. CCP 
never stops its punishment on activists, but Xi has a much lower 
threshold of prisons.
    But the deep reason locates in the whole political and social 
situation.
    China has become the second largest economy in the world. China is 
flexing its muscles by military parade, AIIB, and new message on South 
China Sea. By tearing up the promise of Hong Kong's autonomy. Also by 
detaining Nobel laureate Liu Xiaobo, disappearing Panchen Lama, 
arresting more and more rights activists. But isn't there a profound 
dread lurking behind this barbarism?
    The party's attempts to project confidence do little to disguise 
its panic: It is beset by economic strife, antagonism between officials 
and the people, widespread corruption, environmental and ecological 
disasters, unrest in Xinjiang and Tibet, and its own sense of 
ideological crisis. The party no longer has the ability to carry out 
the frantic, Mao-style mobilizations of the past. Its ideology has lost 
all attraction, and the public's frustration with the party is growing. 
People are more willing to criticize the regime in public, and the 
spread of access to the Internet has stunted the effect of the party's 
inculcation, thought work and propaganda. The stock market's recent 
crash and the tragic Tianjin blast led even the middle class to fury 
and disappointment. Wang qishan's recent talk on legitimacy exactly 
reflects the CCP's anxiety of its lack of legitimacy. The recycling of 
old slogans, the shutting of NGOs, the arrest of dissidents and 
enhanced controls on the spread of information--all of it is a sign of 
the party's deep fear of a color revolution.
    Compared with all of this, the rights lawyer and civil society 
activists are gaining in prestige, influence and communications and 
organizational capacity. Since 2003, more and more people joined in the 
Rights Defense Movement. Human rights lawyers defend civil rights, 
challenge the abuse of power and promote rule of law though taking 
political cases or sensitive cases. People organize more and more NGOs, 
working on various rights of the unprivileged people. Bloggers and 
writers write articles to criticize the government, or disseminate 
information on sensitive events. Activists initiate New Citizens 
Movement and South Street Movement to demand political rights. People 
gather privately to commemorate the Tiananmen Massacre. The Rights 
Defense Movement tends to be more organized and politicalized, gaining 
more support and respects from the general public.
    These are the reasons why Xi decided to purge the rights activists 
and destroy the growing civil society. But this crackdown won't silence 
the rights lawyers and defenders, and it won't stop the march toward 
human rights and dignity in China. Rights lawyers will rise from the 
ashes with an even deeper sense of their historical responsibility.
    Xi is coming here soon. Does Xi and the party wish to relive the 
nightmare of lawlessness during the Culture Revolution? When will he 
release China's prisoners of conscience? When will this ruthless 
suppression of freedom end? Will the Beijing 2022 Winter Olympics be 
another human rights disaster, like the 2008 Beijing Olympics were? We 
ought to ask him.
    'The day we see the truth and cease to speak is the day we begin to 
die' . Martin Luther King Jr. once said. We should not keep silence 
when so many Chinese people are suffering the atrocities of CCP. 
History of Nazi will repeat itself when people choose to do nothing 
when Xi Jinping is going toward Hitler. Those who welcome Xi Jinping 
without raising human rights issue are helpers of the dictator.
                                 ______
                                 

                    Prepared Statement of Xiao Qiang

                           september 18, 2015
    Mr. Chairman, Respected Members of the Commission,
    My name is Xiao Qiang. I am the founder and chief editor of China 
Digital Times, a bilingual China news website. I am also an adjunct 
professor at the University of California, Berkeley School of 
Information, where my current research focuses on mapping political 
discourses in Chinese cyberspace, measuring state censorship and 
control of the Internet, and developing cloud-based technologies to 
break through that censorship. It is my privilege to testify in front 
of this commission again.
    Mr. Chairman, China has the world's largest number of Internet 
users, estimated at 641 million to date. After President Xi Jinping 
took power in 2012, he framed the Internet as a battlefield for 
ideological control and appointed himself head of a top-level Internet 
security committee. He also established the State Internet Information 
Office (renamed the Cyberspace Administration of China), and continues 
to intensify restrictions and controls on the Internet freedom.
    In the past two and a half years, Xi's administration has not only 
expanded its crackdown on freedom of expression and freedom of the 
press, it has also launched a ferocious assault on civil society. These 
violations of fundamental rights and freedoms have been well documented 
by international human rights organizations.
    For example, Freedom House's annual report ``Freedom on the Net'' 
details China's restrictions of Internet freedom by blocking and 
filtering access to international websites, censoring online content, 
and violating users' rights. I recommend Freedom House's excellent 
report to the Commission.
    ``World Press Freedom Index 2015,'' published by Paris-based 
Reporters Without Borders, ranks China 176th out of 180 countries.
    China Digital Times closely follows the interplay of censorship, 
activism, and emerging public opinion on the Chinese Internet. In 
particular, we collect and translate many of the censorship directives 
the Party sends to state media and Internet companies. We also 
aggregate breaking news deemed ``sensitive'' by state censors.
    During the last twelve years, the China Digital Times team has 
published over 2,600 such censorship directives, and using these 
directives has pieced together how the Chinese government restricts 
Internet freedom. Here are a few recent examples to illustrate these 
controls.

  1. From September 8, 2015, on Tibet, issued by the Cyberspace 
Administration of China:

        All websites may follow coverage of the 50th anniversary of the 
        founding of the Tibet Autonomous Region. Please take care to 
        tidy up negative and harmful information related to the news. 
        You may close the comments section on major stories.

  2. On September 7, 2015, the Chinese Communist Party's Central 
Propaganda Department issued a classified document, marked as notice 
number 320 for the year 2015. This document instructs state media to to 
report positively on the economy. Here is one excerpt from this 
document:

        The focus for the month of September will be strengthening 
        economic propaganda and guiding public opinion, as well as 
        overall planning for domestic- and foreign-facing propaganda 
        and Internet propaganda, in order to take the next step in 
        promoting the discourse on China's bright economic future and 
        the superiority of China's system, as well as stabilizing 
        expectations and inspiring confidence.

  In fact, both state and independent media have been pressured to keep 
economic reporting upbeat and to downplay the stock market crash last 
month as well as slumps earlier in the summer. A directive from August 
25 requires that Chinese websites delete specific essays about the 
crash, while in June the State Administration of Press, Publication, 
Radio, Film, and Television instructed TV and radio stations to 
``rationally lead market expectations to prevent inappropriate reports 
from causing the market to spike or crash.''
  The central government did not stopped at issuing internal censorship 
and propaganda instructions. In August, Caijing reporter Wang Xiaolu 
confessed on CCTV to ``causing panic and disorder'' with a negative 
story on the stock market slump.

  3. From September 3, 2015, concerning the military parade in Beijing, 
issued by the Central Propaganda Department:

        Do not hype or comment on those high leaders of major Western 
        countries who are not attending the September 3 military parade 
        commemorating the 70th anniversary of the victory in the war 
        against Japan.

  4. On August 12, 2015, a chemical explosion in the port city of 
Tianjin left at least 173 dead and nearly 800 injured. China Digital 
Times collected a number of censorship instructions issued to state 
media and Internet companies regarding the accident, including the 
following from the Cyberspace Administration of China:

        Standard sources must be used regarding the explosions in 
        Tianjin's Tanggu Open Economic Zone. Use only copy from Xinhua 
        and authoritative departments and media. Websites cannot 
        privately gather information on the accident, and when 
        publishing news cannot add individual interpretation without 
        authorization. Do not make live broadcasts.

  5. In July, almost 200 lawyers and activists were questioned or taken 
into custody. The state media calls this an operation against 
``conspirators'' who are ``colluding with petitioners to disturb social 
order and to reach their goals with ulterior motives.''
  Here is one censorship directive issued by the Cyberspace 
Administration of China on July 14, 2015:

        All websites must, without exception, use as the standard 
        official and authoritative media reports with regards to the 
        detention of trouble-making lawyers by the relevant 
        departments. Personnel must take care to find and delete 
        harmful information; do not repost news from non-standard 
        sources.

  In this case, the Chinese government is persecuting and prosecuting 
Chinese citizens, to quote H. R. 491, for ``posting or transmitting 
peaceful political, religious, or ideological opinion or belief via the 
Internet.''

    Mr. Chairman, Members of the Commission, I also would like to 
recommend the remarkable report, ``China's Great Cannon,'' published by 
Toronto University's Citizen Lab. The Great Cannon is an attack tool 
used to launch distributed denial-of-service attacks on websites by 
intercepting massive amounts of web traffic and redirecting it to 
targeted websites. That is to say, it ``weaponizes'' unwitting Internet 
users from around the world in order to overwhelm the servers of the 
targeted sites.
    The first deployment of the Great Cannon was in late March 2015, 
targeting two specific users of the San Francisco-based code sharing 
site Github: the New York Times' Chinese mirror site, and the anti-
censorship organisation GreatFire.org.
    Based on this weapon's network position across different Chinese 
Internet service providers and on similarities in its source code to 
the Great Firewall, the researchers at Citizen Lab and the 
International Computer Science Institute ``believe there is compelling 
evidence that the Chinese government operates the GC [Great Cannon].''
    In other words, the Chinese government is not only deliberately 
blocking, filtering, and censoring online information based on the 
expression of political, religious, or ideological opinion or belief 
within China; it is also using technology to disrupt Internet traffic 
and commercial infrastructure beyond its borders.
    Mr. Chairman, I want to thank the Commission for holding this 
important public hearing on human rights in China, days before the 
Chinese president Xi Jinping's first state visit to the United States.
    I urge President Xi Jinping to stop his repressive policies and 
practices. The Chinese people want and deserve more access to 
information and the Internet, and greater freedom to express their 
views. Chinese people desire and demand greater protection of human 
rights in their political, social, economic, and cultural life.
    I urge President Obama to engage President Xi on Internet freedom, 
press freedom, and freedom of expression in their meetings, not only 
raising concerns, but also insisting that future political and economic 
relationships be dependent on the Chinese government demonstrating 
improvements in upholding human rights.
                                 ______
                                 

                   Prepared Statement of Yang Jianli

                           september 18, 2015
Part One. Engaging China with Moral and Strategic Clarity
Part Two. Xi Jinping's Foolish ``Confidence'' Leads to Unstoppable 
Decline
Part Three. 64 Questions for Xi Jinping

Part One--Engaging China with Moral and Strategic Clarity

    26 years ago, after the bloody massacre in Beijing in 1989, we came 
to Washington DC to plea the U.S. government to impose an economic 
sanction against the China Communist regime, in particular, to link 
China's most favorite nation (MFN) status with human rights. We argued 
that continuing the normal trade with China would like a blood 
transfusion to the Communist regime, making it more aggressive and 
harming the interests of both American and Chinese people.
    But our warning fell on deaf ears. After a lengthy debate, the U.S. 
government decided to continue its engagement policy, granting 
permanent MFN to China and contending economic growth would eventually 
bring democracy to the country.
    Today, with money and technologies pouring in from the U.S. and 
other Western countries, with their free markets wide open for the 
Chinese-made goods, the Chinese Communist regime not only survived the 
1989 crisis, it has catapulted into the 21st century. The country's 
explosive economic growth has brought it from near the bottom of the 
world in GDP per capita to become the number two economy in the world; 
but democracy remains yet a far-fetched dream.
    The Chinese Communist regime has instead grown into a 
Frankenstein's monster, terrorizing peoples both domestically and 
internationally.
    China uses its economic power gained with the help of the West to 
build a formidable, fully modernized military, that has reached every 
corner of the earth. With this unprecedented power, China is now 
forcefully demanding a re-write of international norms and rules. China 
wants to create a new international order with Beijing's dominance in 
the Asia-Pacific region as the centerpiece. This new order has 
threatened world peace and the current balance of power put into place 
since the World War II.
    What went wrong with the America's engagement policy?
    In our view, the failure lies primarily lacked any moral and 
strategic clarity in its design and implementation.
    The origin of the error can trace back to the early 1970s when then 
Secretary of State Henry Kissinger claiming that by integrating Beijing 
into the international community economically and politically, China 
would behave responsibly, abiding by international norms and rules.
    This amoral, geo-political and short-term pragmatic strategy fails 
to see the evil nature and hegemonic ambition of the communist regime 
as reiterated in President Xi Jinping's ``China Dream'' of a great red 
empire, to replace the western civilization with its socialist 
civilization.
    Washington Policy makers also fail to understand that economic 
growth may be a necessary condition, but not a sufficient one, for 
cultivating democracy. Consequently, this policy has fundamentally 
undermined America's national interests and security.
    The alternative is to engage China with a moral strategic compass: 
China under the Chinese Communist Party's rule cannot rise peacefully, 
and its transition to a democratic country that respects human rights, 
rule of law, freedom of speech and religion, is in everyone's best 
interest, including China's own. In other words, the U.S. must push for 
a peaceful regime change in China.
    The reason for this is simple:
    To support China's totalitarian regime, a regime that ruthlessly 
represses its own people, denies universal values to justify its 
dictatorship, and that challenges the existing international order to 
seek its dominance, is both morally corrupt and strategically stupid.
    Like Frankenstein's monster, China is now seeking revenge against 
its creator--the West. It will destabilize and endanger the world, for 
the so-called China model, an amoral and monstrous political system and 
the corrupt way of life, like the black plague, has been spread and 
infected the international community, and will eventually ruin it, but 
most people in the world are not aware of it, and many even being 
fooled to believe it is the future.
    China's communists has hijacked 1.3 billion Chinese people, 
imposing a political system on them by force and coercion, running the 
country like a slave-owner of the past, obliterating their self-
governance, and controlling their life without their consent. To 
continue support of this anti-humanity regime runs contrary to 
universal values and international law to which America has long been 
committed.
    While many policymakers in Washington have now realized that it is 
time to get tough on China, some still elude that the present and 
future conflicts between the US and China can be managed. Our view is, 
without China's democratization, the US and China will unavoidably 
collide, because the two countries' strategic goals are fundamentally 
different and core interests are uncompromisable.
    The only way to prevent future wars with China is to pursue its 
democratic transformation now.
    To start, the Congress should pass a China Democracy Act, directing 
the Federal government and all its agencies to make democracy and human 
rights advocacy as the core policy when engaging China, and requires 
the President to report to the Congress every year on the specific 
successes.
    The engagement policy allowed and even encouraged too many 
government departments to assist China just for engagement sake, and 
with no regard to any effort to promote political reform and freedom. 
The act will serve as America's grand strategy on China, and the 
government will take coordinated actions to achieve the goal.
    But is a peaceful regime change possible in China?
    Absolutely. Despite restrictions, the Internet and free flow of 
information have changed China, particular the younger generations. 
Civic society is awakening; religions are flourishing, with rapidly 
increasing number of believers; the rising middle class, as well as 
disadvantaged groups, are longing for a political system that ensures 
equal opportunity and fairness for all. Even the upper class wants rule 
of law to protect their wealth, because without it no one is safe in 
China.
    China's power elite knows this insecurity very well. The recent 
anti-corruption campaign under President Xi Jinping has turned into a 
life-or-death power struggle among the regime's power elites, which has 
split the regime. The power elite face the choice of either destroying 
each other or find a Godfather-type solution where they give up their 
gangster way of life and become legitimate via a constitutional 
democracy. With sufficient pressure from the international community 
and from within, such a transformation is not entirely unlikely.
    Immanuel Kant and modern-day social science has shown that 
democracies are less disposed to go to war with each other. Long-
lasting peace and friendship between the U.S. and China means that 
China must transition to a democracy.
    If the U.S. takes no action, we worry that China will continue down 
the perilous path of achieving its world dominance through militarism 
and aggression, which easily lead to another war that the world can not 
afford.

Part Two--Xi Jinping's Foolish ``Confidence'' Leads to Unstoppable 
Decline
Prelude/Introduction
    China's disastrous stock storm and unprecedented crackdown on 
defenders of human rights have been well recorded during my three-year 
observations of the Xi Jinping Administration.
    Since taking over top leadership in China, Xi Jinping has become a 
crusader in both political and economic arenas with aims to consolidate 
personal power and create a personal cult. From within the Party to his 
broad social life, inside officialdom and in the market, from the 
Mainland to the Hong Kong Island - what Xi has achieved are four 
``triumphs'': power overwhelming anticorruption, political power 
overwhelming market forces, ``One nation'' state overwhelming the ``two 
systems,'' and party's will overwhelming the rule of law. With these 
milestones, Xi Jinping has thus become an icon of ``Red Guards Ruling 
China.''
    Over the last three years, particularly this past year, Xi Jinping 
has exposed clearly the spare ribs of his administration whenever he 
lifted his fist to show off his power, with his reputation on the 
decline, time and again. China's public security forces stormed the 
markets under hisorders in a bid to save the crashing stocks. 
Naturally, people wonder--how can anyone stop the decline of the 
reputation of the regime? Despite the superficial power of Xi's four 
``triumphs'' and his willfulness, people are spotting cracks of the 
iron curtain and sensing the fear of losing power on the part of the 
top leadership under pseudo self-confidence.
    Looking back at the economic and political conditions when Xi took 
power, and comparing them to those under his predecessor Hu Jintao, we 
did not notice many fundamental differences, with only one worthy 
note--people overwhelmingly felt across all walks of life in the 
country, including those insiders, that Xi Jinping might be the last 
emperor of the Communist dynasty. Thus, a dying regime's destiny is in 
his hands. With this sense spreading, Xi Jinping had an apparently 
strong sense of mission of saving the Party and Communist Dynasty, and 
even tried to restore its vigorous authority before drifting away, 
leaving a legacy of being a savior. Under such a political tone, the 
fear of losing personal power, its legitimacy, and eroding base have 
been among his constant and main themes and its variations, unless Xi 
wants to change fundamental political system.
    During the tenure of Hu Jintao and his premier Wen Jiabao, China 
experienced the climax of what ``power leads to corruption'' means 
during the last decade, with many extreme cases on record. The past 
three years indicates that Xi Jinping administration has, and shall 
continue to show why fear of losing power not only leads to corruption 
but makes those in power mad and insanely ferocious. No matter how 
reluctant Xi Jinping is, being the last emperor of the Communist regime 
may well be his destiny. All extreme syndromes of a dying regime make 
China the spectacular stage of extravagance and brutality.
    To date, many political analysts are still wondering about Xi's 
political logic and motivations, and they debate about them. However, 
based on my observation of Xi's three-year performance sense his taking 
power, I have come to conclude that his bare bones nature was exposed 
despite layers of disguise. With my glimpse into the so-called mystery 
of the administration formulating his personal cult for two years, I 
can say XI presented himself before civil society a cult propaganda. 
Now we, the opposition, and the rest of the world, shall not be puzzled 
about his agenda, and need to exam XI Jinping from a different 
perspective.
1.
    Xi Jinping seems destined to experience a turbulent tenure, unlike 
that of his predecessor Hu Jintao, due to the strings of a political 
dramas abruptly unveiled on the eve of his taking power. Yet, I believe 
it is just a heavy punch that brought good luck for Xi Jinping during 
his first two years. And that punch on the face of Wang Lijun, 
municipal security chief in Chong Qing was like a gift of blessing from 
Bo Xilai, then Party chief of Chong Qing, in southwestern China, who 
was believed to be fighting for his spot on the all-powerful Politburo 
Standing Committee. Then Xi Jinping adopted a strategy to retreat for a 
better bargaining position in power struggle just before the 18th Party 
Congress--and it worked like magic. Xi's acts skillfully held the 
critical ``private part'' of the power structure of the Communist 
regime hostage to bargain with an upper hand, as if the whole system 
dysfunctional and failed to respond appropriately to the unexpected 
incident, particularly, during this non-emergency state of power 
struggle. It was just this incident that helped Xi Jinping consolidated 
all the power much faster than his two predecessors during his first 
few years. After such a round of struggle, a minimal worthy fight, Xi 
has got rid of all potential direct rivals within the Party.
    So far, Xi has successfully avoided the awkward and weak position 
his predecessor Hu Jintao found himself in, in terms of power 
consolidation. This proves one of my views on Communist senior 
officialdom--that anyone, given the position and opportunity, can 
become a high-caliber handler in power struggle, just because, they 
have all been engaged and practicing the power struggle, trial and 
error, all their life, accumulating extraordinary wealth of 
experiences. And in addition, China's rich history of emperor politics 
in the past several thousand years provides historical examples from 
which power grabbers can borrow. In a closed power structure, anyone on 
a vantage position may not need to be particularly bright or clever to 
succeed.
    Chinese politics by nature has been long filled with risks. And 
complicated power manipulation in China makes outsiders unable to 
comprehend these risks. In the very beginning of his tenure, Xi Jinping 
had actually experienced a quite comfortable period given the mixed and 
often negative social reactions to Bo Xilai's notorious performance. He 
appealed the ``glory'' of Mao era in the form of chanting the oldies 
and (illegally) cracking down the ``underground gangs.'' This provided 
perfect timing for Xi Jinping to restart the long-due political reforms 
for a new round of vital social development, if Xi intended to curb the 
coming back of the extreme left-wing. But the fact of the matter was, 
Xi took over the banner of the disgraced Bo Xilai, in disguise of 
swinging between the left and right, and ended up embracing 
dictatorship in alignment with the left-wing, and with omnipotence.
    It is critical for us to understand that Xi Jinping is the party 
chief, not a democratically elected head of state. Xi, being not only 
the son (literally) of Xi Zhongxun (one of the revolutionary elders, 
famous for his open mindedness), but the captain of the Communist 
cruise (pirate) ship, and therefore, Xi had, to begin with, to keep 
balance of power among those surrounding him, consolidating power 
within the party to maintain his stable leadership position. From this 
position, and his logic, Xi must take the path of ``political 
correctness'' to minimize potential risks. Xi's ``red gene'' confines 
his moves. The so-called ``Red gene'' still exists in the once-
marginalized groups of Party apparatchiks and group of bootlickers 
during the market-oriented reform era, who obviously survived and now 
being revived by Xi Jinping, who has become their master and great 
leader. Naturally, when Xi Jinping has gradually become a de facto 
descendent of the disgraced Bo Xilai's left-wing, these bootlickers are 
responsible to their masters and upper social elites, and they test the 
psychological tolerance of the general public by offering flattery 
remarks and praise hymns to Xi Jinping, while at the same time, state 
machinery increasingly tightened control of expression, and in curbing 
thought, politicizing almost everything in China.
    Since taking office, Xi Jinping has intensified crackdown on 
opinion leaders of civil society, in the name of curbing ``gossip 
mongering,'' and the regime shamelessly utilized paid online bloggers, 
party-anointed writers in huge amounts to monitor domestic web-sphere, 
overwhelmed by brainwashing campaigns, highlighting Zhou Xiaoping-style 
official gossipers, just for the purpose of misleading the general 
public, to align with Party lines and catchy phrases.
    Now the general public has become coldly silent. Their silence is 
much quieter than that of the silence of Hu Jintao era. Now we also 
know the reasons - suppression of Qing Huohuo, Xue Manzi, among others, 
arrests being made to crack down Xu Zhiyong, Guo Yushan, Gao Yu, Pu 
Zhiqiang, Guo Feixiong, Wu Gan, Wan Yu, etc. and even worse, the gun-
down of innocent people like Xu Chunhe . . .
2.
    The era under Hu Jintao, along with his premier Wen Jiabao, 
experienced all-around social, economic and political crisis in China, 
and saw no progressive moves to address the issues. It was labeled 
``muddling along with a bomb on a timer.'' When in power, Hu Jintao and 
Wen Jiabao were eager to pass such a bomb onto the next successor, and 
retreat peacefully in retirement. Xi Jinping, on the other hand, 
exposed a strong intention even in the very beginning of his term. Xi 
seems not to getting the ``bomb'' onto his successor, nor did he ever 
try to defuse such a bomb. Instead, XI Jinping wanted to make an even 
more powerful bomb, the Xi-style one, to destroy the inherited bombs, 
all in one.
    The bomb in the hands of Hu-Wen Administration then was made within 
the Party itself - amid unprecedented epidemic corruption of government 
officials and party apparatchiks, and the social crisis caused by crony 
capitalism with Chinese characteristics in which the government 
officials and business elites have joined hand in hand in shameless and 
cruel exploitation of the voiceless public. Such a horrific matter of 
fact has been universally acknowledged including Xi Jinping himself, 
who must be more alert to the urgency than anyone else because of his 
self-claimed destiny to save the Party and the Communist regime from 
the unstoppable collapse. Naturally, overwhelming anti-corruption has 
been a main driving force of his administration since its start. For a 
newly installed ruler like Xi Jinping, who has embodied aggressive 
agendas, to consolidate personal power dominates his operations. His 
other goal is to disable potential rivals who tried in vain to steal 
power away from him, in the name of anti-corruption. With power 
grabbing being a constant struggle for Xi Jinping, social crisis caused 
by corruption receive relatively less attention as it is less of a 
headache for him.
    What's more, the Communist Party, as a whole system, is totally 
corrupted, anti-corruption is a de facto anti-Party itself. Xi Jinping 
certainly would not act like conducting suicide bombing against his own 
Party. XI never intends to push his Party for a fundamental change of 
system. Then anti-corruption features selective targets from the very 
start, serving his purpose to consolidate his personal power. Now that 
power struggle and anti-corruption have jointly moved his agenda into a 
``be or not to be'' situation in which the Party and the regime need to 
answer. It is an integral part of political power struggle to have 
anti-corruption move forward just for his own political interests.
    Lack of legitimacy has been raised when the ongoing anticorruption 
campaigns target certain selected groups, because none of the elements 
inside the Party are intrinsically clean. ``Why me, not him? '' they 
ask. Therefore, its legitimacy has been challenged after the New York 
Times reporter Michael Forsythe reported on the family wealth of Xi 
Jinping. As anti-corruption has been utilized for power struggle, those 
party factions and individuals under investigation or fallen officials 
of this struggle shall not lay down their arms. Strings of events 
highlight this ongoing internal struggle, such as the New York Times 
stories (there must be internal ``Deep Throat'' within the Party 
feeding information to the media), war of words between politically 
well-connected wealthy businessman Guo Wengui (who fled China) and his 
rivals on mainland China, to the mystery of the missing (believed to 
have fled to U.S., in hiding, perhaps in process of seeking political 
asylum) Ling Wancheng who is believed to have possession of lots of top 
classified information about the Communist regime (this wealthy 
businessman is a brother of Ling Jihua, then top aid to Hu Jintao), 
among some of the high-profile cases. All these dramas reveal that 
rivals within the top tier of the Communist Party hold in possession of 
vital, classified top security information as powerful as a nuclear 
device to destroy any other internal competitors. Therefore, for Xi 
Jinping, the ideal mode would be to maintain a kind of power balance, 
like ``nuclear deterrent'' for his anti-corruption campaigns, drifting 
away from his ``nuclear war'' style against his rivals in the first few 
years.
    On the economy, which has been experiencing slowdown since last 
year, the communist regime realizes its potential social crisis looming 
overhead because it is believe that legitimacy only depends on high 
growth of the economy, as it was in the past decades. Under current 
political environment, Xi Jinping's anti-corruption could face 
overwhelming challenges from his rivals, given any crisis arising soon. 
In the power struggle of the Communist Party of China, fabricating 
crimes is a well-known game serving for any power players. Xi Jinping's 
crimes are prominent, readily available to the advantage of his rivals. 
As Xi himself knows this much better than any layman on the street, he 
has switched his anti-corruption back to the mode of ``old norm'' under 
the ``new norm'' economic situations.
    To address a more fundamental issue regarding its legitimacy of the 
ruling Communist Party, Xi Jinping tried to bet his hope on the success 
of his anti-corruption campaign, which, on the contrary, has drifted 
away in the opposite direction, for its own inherent logic. Such a 
high-profile show earned him nothing more than some scattered hurrays 
from the disengaged, innocent grassroots. In other words, Xi Jinping is 
facing his own Catch-22, because anti-corruption means anti-Party 
itself. What's next, will Xi have to reheat his cold, half-cooked rice 
meal?
3.
    It may be too early to conclude that Xi Jinping will be a flash in 
a pan, just like then the ``great leader'' Hua Guofeng (who helped 
topple the Mao's wife and her ``Gang of Four''). Xi's power struggle 
and his temporary triumphs over his rivals so far reminds people of 
those television episodes adapted from a historical novel authored by 
Er Yuehe. As Xi has delivered too many awe-inspiring performances, for 
example, Xi recently cited ``house rule'' in place of rule of law, 
depending on informers and his own imperial-appointed special envoys, 
usually undercover, to carry out his anti-corruption campaigns. All 
these dirty games are just like the same old, already disappeared 
Chinese dynasties. The very nature of his imperial-style actions 
indicates Xi Jinping's political thinking and mindset which are so 
backward as imperial palace coup of the old days. It must be 
acknowledged that politics is never merely about power or power 
struggle. More essential contents do exist beyond rim of power struggle 
in politics. What can be said about Xi is that he is a doomed 
politician based on his performances up to date, which clearly bears 
the symptom of a dying political system.
    It is as easy as ABC to list challenges facing the Xi 
Administration: ethnic issues in Tibet and Xin Jiang Autonomous 
Regions, universal ballot in Hong Kong, maritime disputes in East and 
South China Seas, housing bubble, stock market turbulence, overwhelming 
debts, increasing pressure on currency exchange rate, rising 
unemployment, difficult job market facing graduating college students, 
rights abuses, massive rights self-defenders, and huge number of mass-
incidents involving protesters and demonstrators, all across the 
country, etc., and etc.
    Ironically, we see a ``self-confident'' Xi Jinping wearing on the 
track of a superficially robust Communist Party with its so-called 
``three confidences'' theory. Xi seems to have good reasons to have 
such ``confidence,'' just from the perspective of a inflated powerful 
political party. Therefore, he has been aggressive on all sides.
    On Hong Kong, the Communist Cabinet, through its State Council 
Information Office, issued a white paper on The Practice of the ``One 
Country, Two Systems'' Policy in the Hong Kong Special Administrative 
Region, in June of 2014, stating that ``As a unitary state, China's 
central government has comprehensive jurisdiction over all local 
administrative regions, including the HKSAR. The high degree of 
autonomy of HKSAR is not an inherent power, but one that comes solely 
from the authorization by the central leadership.'' Furthermore, ``(it 
is necessary to stay alert to) prevent and repel the attempt made by a 
very small number of people who act in collusion with outside forces to 
interfere with the implementation of ``one country, two systems'' in 
Hong Kong.'' Such aggressive rhetoric pronounced just before the 
schedule referendum in the middle of June initiated by grassroots 
``Occupy Central'' movement was indeed intended to suppress the growing 
popular demand for a ``universal suffrage'' in Hong Kong. As a result, 
local populace was thus angered and mobilized to support ``Occupy 
Central.'' This foolish communist move further led to the fiasco at the 
Hong Long Legislature ballot on June 18, defeating the central 
government proposal for a fake democracy in selecting its Chief 
Executive in Hong Kong by a stunning 28 to 8, to the surprise of many 
observers.
    Xi Jinping has been so aggressive to take actions suppressing civil 
society in China. Xi's predecessors normally were defensive in dealing 
with domestic dissidents over the past two decades since Tiananmen 
Massacre in 1989. The Communist regime realized its disillusion of the 
Communist ideology that has been put aside by the general populace, as 
well as its own ruling class. However, all Communist rulers, such as 
Deng Xiaoping, Jiang Zemin and Hu Jintao, has been rights abusers when 
they had to deal with and eventually cracked down dissidents, including 
the underground Library Democratic Party (1992), open fight for 
registration of a newly established Democratic Party (1998), Falungong 
activists (1999), Charter '08 signatory movement (2008). These 
ferocious crackdowns severely violated the legitimate rights of the 
Chinese citizens. Such suppression reflects an overwhelming fear of the 
Communist regime for losing its control of power, and would definitely 
show no mercy or any hesitation to take immediate action to curb any 
dissidents. A recent example was the crackdown on ``Jasmine Movement'' 
in 2011, which was seen as instinct of any authoritarian regime, and 
perhaps under the directive of then Vice President Xi Jinping. After Xi 
became the top leader, he has conducted series of suppression, much 
more severe than ever, leading to large-scale arrests of rights defense 
lawyers before the 25th commemoration of Tiananmen Massacre (1989), and 
hundreds of cases of detention and arrests of human rights lawyer 
(2014).
    From these campaigns, we can see the difference between the Xi 
regime and his predecessors in dealing with dissidents. Xi has been 
more aggressive in demonizing grassroots opinion leaders. This backward 
step was the result of directives from Xi Jinping regime under the 
self-blown ``Three Confidences'' in defiance of historic current. It is 
a worthy note that Xi Jinping has been more relentless to suppress 
relatives and family members of those involved dissidents, even after 
he took down his political rival Zhou Yongkong whose suppression 
machinery had earned him not only the title ``Szar,'' but also billions 
of dollars in personal and family wealth.
    With more than 200 human rights activists and defense lawyers under 
attack, the ``Great Leader'' Xi Jinping anchored as a high tightrope 
walker amid skyrocketing stock markets that crashed his reputation, 
perhaps his self-confidence. The Chinese stock market itself is a 
government-run scam, with little real link to China's real economy. 
When it rose so dramatically by the end of 2014, that Chinese official 
media admitted that such a stock phenomenon was propped up by 
government policy ONLY. So many naive, often first-time stock buyers 
believed that this was the high time for Xin Jinping regime to start 
distributing ``bonuses.'' In May 2015 the official Party mouthpiece, 
the People's Daily and the state news agency Xinhua jointly bragged 
``New Beginning of a Bull Market.'' What a beautiful sovereign scam! 
Soon after the holy hymn came the crash of 1700 points on Shanghai 
Index, as flashy as it was rising. Now the Big Brother again 
confidently heavy handed the markets, with a string of confidence-
building measures, like freezing IPOs, handing over tons of cash for 
mandatory purchase of stocks by large brokers, even worse, dispatching 
security agents to ``investigate'' any short-selling manipulation, in 
collaboration with ``foreign forces.'' All these efforts failed to 
drive any rebounding effect, thus prompting financial crisis and regime 
crisis in the face of the Xi regime. Now his image of omnipotence is in 
crisis again, following his humiliating defeat of Hong Kong ballot plan 
at local legislature on June 18.
    In the meantime, we now see the spectacular omnipotence of the 
Communist regime's power organs--this time, on stock market, the 
security agents are performing a role in full swing to save the stock 
market, again under the directive of Xi Jinping, demanding that ``No 
sale but purchase only'' in plain language exposed on official 
websites. Xi's omnipotent measures cost dearly, not only in term of 
money, more importantly, the confidence in the Chinese stock markets, 
because people now see clearly what is left out is nothing about market 
forces but market of power games, the white-knuckled political power 
intervention in market. What is left in the market is billions of 
dollars sovereign fund, drifting along, with no sense of destination, 
while millions of tiny ordinary stock buyers are left holding the bag. 
It is the government who has successfully turned a ``Reform Bull'' into 
a monster sucker of ordinary people's lifelines. This intervention has 
one more byproduct, that is, the Xi regime has been under great 
restraint in dealing with other urgent economic and social issues after 
its billions of dollars fund being held like a hostage on the 
dysfunctional Chinese stock market.
    From my observations in the course of nearly three years, I see a 
very clear choice made by Xi Jinping who prioritizes stabilizing his 
regime, and takes decisive measures to achieve his political goals. His 
overall strategy is to demanding obedience, curbing limited freedom, 
avoiding discussing any inherent flaws in its fundamental system, and 
strengthening control of thoughts and expressions. In addition, he 
brags of ethics and morality.
    Let's examine several cases in hand, such as corruption, crashing 
stock markets, among others, which are organically produced by the 
Communist regime itself, and as a inevitable results of its political 
and economic systems. Xi's answers are far from addressing these 
fundamental issues, rather trying to seek answers from the same old 
stuffs, like a late Party apparatchik named Jiao Yulu, and even worse, 
Xi resorted to ridiculous intervention demanding certain social groups 
to buy-into the stocks, which naturally worsened the disastrous 
situation. With no clue in dealing with the complicated market economic 
function, like stocks, Xi believes in his only magician recipe, or 
wrong description, i.e., too much power, omnipotent power of an 
authoritarian regime, to make him look like omnipotent. His nonsense 
running a government with lack of transparency has already driven 
people of conscience to adopt ``non-cooperation'' strategy to engage in 
a underground movement, even among his officialdom, not to mention, the 
general populace. Similarly, in Hong Hong, those pro-Beijing 
legislators achieved their unwanted results on the local Legislature 
floor this past June, when a bunch of the robot members failed to cast 
their ballots due to what was later nicknamed awaiting ``Uncle (Liu 
Huang) Fa'' who failed to show up on the floor because of illness on 
June 18, thus dooming their attempted fake democracy scheme.
    I must point out that I particularly chose the special incidents 
like Hong Kong's failed ballot, suppression of rights defenders, and 
government intervention in stock markets, just for the pure sake of Xi 
Jinping's mindset and his regime after successfully consolidating his 
power. In other words, we can see clearly that Xi Jinping has 
successfully destroyed the limited elements of democracy, rule of law 
and free market in China, in a systematic, aggressive way. XI pushed 
his ``One Country'' regime to abuse the ``Two Systems'' in Hong Kong. 
Xi applied his Party will to replace rule of law, and infringed the 
principles of market with his state power. All these episodes present 
clear images of Xi's historic backward step in China.
4.
    For a while, Xi Jinping seems to have won support from the general 
populace, for two reasons, one is the anti-corruption campaigns, and 
the other propping-up stock prices. Now you see his once bubbling stock 
market has become a hot potato, bearing his infamous trademark of 
``Uncle/Papa XI.'' Regarding his anti-corruption, ordinary people have 
gradually changed their minds, a subtle process though. Anti-corruption 
has brought no tangible benefits to the mass, who, on the contrary, 
have to bear rising costs of gas, highway tolls, and rising retirement 
age, etc., and etc. When Xi positions himself against democracy, free 
market, and rule of law, he would never have the real courage to take 
on corruption. And now we are perhaps on the brink of experiencing a 
backward step, after his short-lived anti-corruption show. This will 
also lead to huge increase of dissatisfaction of the discontent public 
who was once pumped with high-hope for a somehow clean government that 
serves the interests of the people.
    In today's China, economic problems looming large before our eyes 
include increasing gap between the rich and the poor, and the 
systematic bottleneck in dealing with these problems. Now is the high 
time for Xi to make choices. What Xi has been pushing so far is to 
pouring funds to feed the state-owned enterprises (``SOEs''), 
strengthened by the paramount presence of the Party in these SOEs. Xi 
also has taken steps to pressure NGOs, from virtual space to real life, 
demanding real name registration as a new norm. We can predict that the 
above development and Xi's follow-up measures, such as anti-corruption 
which has brought nothing tangible for the general populace, but tax 
collection outpaced GDP growth rate. To share minimal benefit with 
ordinary people out of the pockets of elites has tuned out to be 
unbearably painful.
    Regarding wealth (re)distribution in China, power has the final 
say, and ordinary people have always been ignored, powerless. When 
economic slowdown gets worse, so does widening gap between the rich and 
the poor. It is just the people on the bottom of the social ladder that 
suffers most in hard times. Social unrest shall flourish. For those 
elites who have insiders' economic intelligence understand where the 
future troubles will be arising. Therefore, we believe that Xi 
Jinping's reckless performance so far has been a warming-up for the 
future disasters, in case he loses control. This can be demonstrated by 
his policy making, i.e. he has been utilizing all available resources 
to further control all social sectors. Does he know by doing so he has 
presented himself and his regime as the enemy of the people? Surely, he 
does, and he does not have the power or political will to reverse the 
course.
    We noticed that Xi Jinping has utilized the similar tactics against 
civil society as he did to his rivals and corrupted officials. 
Technically, this works well to a certain degree, which in turn poses 
the serious problems. Few of these suppressed civil leaders never 
surrender, nor are they lonely in fighting against injustices in China. 
They are never like those lonely corrupted officials who have been 
isolated from the Chinese society, politically and psychologically, 
indulged in abusing their positions. Economy works on its own, 
following its own rules. Now we have a rather clear idea of how Xi 
Jinping has been haunted by nightmares when he tried to trap pocket 
money from the general populace to pump into the low-efficient, often 
scandal-rocked, scam-filled companies listed on the stock markets, and 
more importantly, Xi tried to release huge amounts of local government 
debts with stolen money through their stock scams.
    Crackdown on rights defenders has not produced any effective 
intimation among dissidents, nor has it silenced them. Hong Kong ballot 
issues shall continue haunting the Communist regime in the years to 
come. Paid gossip-mongers and other propaganda machinery have failed to 
achieve their goals, prompting civil society to adopt more subtle 
measures to counter the regime, in more coordinated ways. Power, no 
matter how powerful, cannot overpower the human spirit, despite ups and 
downs, when huge numbers of the voiceless in desperate situation, begin 
forming invisible power, and they shall be prevail in the end. This is 
what I believe in. And that is also my prediction for the future.

Part Three--64 Questions for Xi Jinping
                                   i.
    1. Mr. Xi Jinping, as chief of Party, State and the Military, from 
where do you get your paycheck? From the Party, or government, or 
military? Are all the budgets for the Party, Government and the 
military collected from taxpayers?
    2. You have consistently emphasized that the PLA cannot be 
nationalized, because it belongs to the Party. If so, then why is the 
army paid by government budget, which come from taxpayers?
    3. Why is the Communist Party and its organs at all levels, which 
are said to be social groups, then still paid by the taxpayers?
    4. As a whole, how much does the Communist Party cost to taxpayers?
    5. How much of the taxpayers' money did you spend on the 9/3 
military parade? How much will the 2022 Winter Olympics cost taxpayers?
    6. DO you believe that the Chinese taxpayers (citizens) have the 
right to know where their tax money has gone or will be spent? Do you 
think Chinese taxpayers are entitled to get involved in the decision-
making process regarding their tax money?
                                  ii.
    7. With great stride, you even risk losing life in a potential coup 
to carry out anti-corruption campaigns. Why then do you order your 
subordinates of the Communist Party to make public their private family 
wealth? As world history proves that officials' announcement of their 
private wealth is one of the most effective mechanisms to curb 
corruption, why have you punished citizens demanding such announcement?
    8. In addition, freedom of expression, press freedom, and open 
competition among different political parties for public offices are 
effective mechanisms in fighting against corruption. So if you are 
genuine about concerns of anti-corruption, why don't you let these 
freedoms flourish?
    9. Why don't you let citizens get involved in your anti-corruption 
campaigns? Some people comment that in today's China, anti-corruption 
is tantamount to anti-the Party (CPC). Is that true?
    10. Do you believe that epidemic corruption of the Communist Party 
comes as a result of individual members' corruption and degeneration? 
Do you think their corruption correlates to the authoritarian system? 
After your taking down an impressive number of ``Tigers,'' how can you 
assure that your newly appointed officials will not follow suit and 
also become corrupted? Do you think you have more orders than your 
predecessors such as Jiang Zemin and Hu Jintao to restrain subordinates 
themselves from corruption? Except for this, are you any different from 
those two predecessors?
    11. Do you think that such a large-scale number of Communist 
members of your party are influenced by Western bourgeoisie ideology? 
How do you explain that in Western governmental systems where they 
receive total Western education their level of corruption is much less?
    12. Can the Chinese taxpayers/citizens learn the facts about your 
family wealth? Is it true information revealed in the report by the New 
York Times report about your family wealth? Are you planning to take 
legal actions against the NYT?
                                  iii.
    13. Do you still believe in the validity of the ``Resolution on 
Certain Questions in the History of Our Party since the Founding of 
the. People's Republic of China'' on June 27, 1981, in which the Great 
Cultural Revolution was totally negated and labeled as ``A Decade of 
Turmoil.'' Your statement suggests that the first thirty years of 
history (1949-1979) cannot be used to negate the subsequent thirty 
years (1979-2009). Does this statement apply to the Cultural 
Revolution? What's your view about the Cultural Revolution?
    14. After the Communist Party seized power in China, it saw the 
great famine, great turmoil, and horrific massacre. Do you know the 
number of abnormal and unexpected deaths that happened in China over 
the period of 66 years (since 1949)? What do you think are the causes 
of these tragedies? Over a half century since its occurrence, is it 
possible to announce the archived data of those deaths during the great 
famine in early 1960's?
    15. As your family, including your father and yourself, experienced 
suppression and injustices and persecution both during and before the 
Cultural Revolution, what kind of lessons have been learned from your 
experiences?
    16. After Bo Xilai was arrested, there were people who believed 
that you do not agree to his Chongqing Path in the name of Chanting Red 
Old Melodies and Oppressing the gangsters. But it turned out to be 
otherwise. Is it only corruption that led Bo Xilai to a disgraceful 
fall? What is your view on Bo Xilai's practice of ``Chanting and 
Oppressing''?
    17. Since your taking power, China's central television has aired a 
series of public confession of the ``crimes'' by suspects (before they 
were justifiably defended in court. Is this practice a kind of 
renaissance of the Cultural Revolution?
    18. After taking power, you have established and led a number of 
so-called ``small groups.'' Are you worried about making ``mistakes'' 
like what Mao Zedong did after consolidating overwhelming power? Do you 
think your personal power needs some checks? Are there any effective 
checks in place?
    19. After you came to power, there were people who proposed 
eliminating the influence of Western Culture, particularly the 
foundation and principles of Western social sciences and humanities. 
Now if without any importing Western concepts, does China ever produce 
its own political science, sociology, economics, among other 
fundamental social sciences? Does Marxism and Leninism belong to 
Western thoughts and ideology? If you cancel or stop these western 
social sciences, what kind of new ones do you have to replace them? Are 
you going to switch back to the Mao-Mode of ``high institutions of 
science and engineering'' as Mao himself did?
                                  iv.
    20. Now we see that you depend on the so-called social stability 
maintaining a system inherited from Hu Jintao and Zhou Yongkang and 
suppressing human rights lawyers and other dissidents. Do you believe 
that Zhou Yongkang has made great contributions to maintaining the 
Communist system?
    21. Can you explain or elaborate on the So-called ``7-NOs'' that 
was said of originally your ideas. Were these approved by the Central 
Committee of the Communist Party? Can you explain reasons for pushing 
the ``7-NOs'' (including universal values, press freedom, civil 
society, civil rights, historical mistakes in Communist Party rein, 
crony capitalism, and judicial independence)?
    22. What kind of ``state secrets'' were leaked in the article by 
Gao Yu, a famous journalist in her 70's? What kind of harm did her 
writing cause to citizens? Or is it a crime if her writing helps 
Chinese citizens learn what they are entitled to know?
    23. Liu Xiaobo has been sentenced to 11 years on the basis of his 6 
pieces of writing. Do you think his sentence was based on his 
legitimate freedom of expression? Liu Xiaobo's sentence terminates on 
June 22, 2020. If you ate still in power, will you let him be freed 
then? In your opinion, what are the differences among the political 
environment in which Liu Xiaobo, Nelson Mandela, Vaclav Havel, Mohandas 
Gandhi, and Martin Luther King Jr. experienced?
    24. Since this past July 10, more than 100 human rigths lawyers, 
and activists have been detained, arrested, disappeared, and harassed. 
Most were released later, with a small number still in custody. We know 
such a campaign is conducted under the unified order. Who is 
responsible for this campaign? What kind of orders have you issued?
    25. Are you going to stop suppressing Falungong during your tenure? 
What is your view on the global movement by Falun Gong to persecute 
Jiang Zemin?
    26. During the Hu Jintao-era, official data shows that China's 
expenditure for maintaining social stability surpassed that for 
national defense. Is it still the same under your administration? If 
not, have you decreased your expenditures for social maintaining 
projects or increased national defense budget?
                                   v.
    27. Do you think the June 4 movement was a violent anti-
revolutionary turmoil? Or was it a civil disorder? Or just a political 
turmoil? Did you agree that it is acceptable to send tanks and machine 
guns to suppress peaceful students and civilians?
    28. Do you support your father's position against suppressing 
students on Tiananmen Square?
    29. If there were students coming to Tiananmen Square for peaceful 
demonstration and protest, are you going to adopt the same measures as 
the CPC did 26 years ago? If not, what are you going to do?
    30. Why has the Communist regime been working hard to cover the 
truth of the Tiananmen Massacre in June 1989?
    31. ``Tankman'' is well known throughout the world, and is said to 
be Wang Weilin. What is his real identity? What is his status now? Why 
has he simply disappeared?
    32. Do you support or oppose the abrupt actions in 1987 to remove 
Hu Yaobang from his position of the Secretary-General of the so-called 
``Democratic Life Session''?
    33. Before your taking over the position of Secretary-General of 
the Communist Party, rumors spread that you were to reverse the Party 
decision on 1989 student movement. What is the possibility of that 
happening?
                                  vi.
    34. Seventy years ago, both Japan and Germany pushed patriotism and 
nationalism. As you commemorated the victory of Anti-Japanese War and 
Anti-Fascism, you similarly emphasized both patriotism and nationalism, 
on the same platform as the Nazi-German military parade. Have you 
noticed the inherent identical problems?
    35. In the Nazi-era, Hitler allowed his subjects on the street to 
watch from their balcony and even on roofs of buildings, why have you 
banned such viewer-rights in Beijing? None of the world leaders has 
banned everything else to serve their military parade, such as shutdown 
of stock markets, factories, hospitals, air flights, vehicles, schools, 
as well as no entertainment on TV, can you image anything more fascist 
than your behavior?
    36. In your speech on September 3 military parade, you shrewdly 
avoided touching historical details of China's anti-Japanese war and 
anti-Fascism. We cannot forget the rivalry between the KMT and 
Communist party in China at the time, and that between freedom and 
democracy and authoritarian Communism. It was just these debates of the 
two ideologies that delayed the final triumph over Fascism. Following 
surrender of Germany, Italy and Japan, civil war in China broke out 
between KMT and the Communist party, followed by the Korea War, and 
Vietnam war. Apparently, you did not follow Mao's suit to express 
appreciation of Japanese aggression in China that helped bring the 
Communist Party to power. You did not define the historic issue of 
leadership of genuine resistance against Japanese aggression, either by 
KMT or the Communist Party. What's your view on the role of the 
Communist Party of China during the Cold War? Any reflections?
    37. How come the KMT veterans who fought against Japanese 
aggression and Communist forces during the Civil War have never 
received any benefits to support their lives? Even following your 
rhetoric that these veterans were wrong in the civil war fighting by 
against Communist forces, they deserve amnesty based on their 30-year 
long humiliation, as victims of slaughter, forced labor camps, custody, 
and family members who suffered from the mistreatment. Given their role 
in anti-Japanese aggression, these veterans deserve some recognition 
from the regime, yet none has been offered. How can the regime present 
the most basic fairness and humanity?
    38. What's your view on the fallout of Lien Chan (Taiwan's former 
vice president) when he returned from your military parade to Taiwan 
where even the pro-reunification allies showed no respect for him
    39. How come most of the WWII anti-Fascism allies did not join you 
for the military parade on September 3?
    40. Do you think patriotism and (communist)Party-love are of the 
same issue?
                                  vii.
    41. In dealing with maritime disputes with neighboring countries, 
the international community is concerned about your regime becoming 
more militaristic. What is your view on the role of armed forces when 
addressing the disputes?
    42. China's propaganda insists on promoting China's soft power, 
however, when universal values, press freedom and civil society, among 
other principles that are universally acceptable, are prohibited from 
public discussion in China, then, what can you utilize to present your 
soft power if not for the opening wallets, and therefore, how can you 
persuade global community to learn from you, to give you a nod?
    43. Ling Jihua, a former senior official and chief of staff in the 
Communist Party's headquarters, has been under custody, and his brother 
Ling Wancheng has fled China, now living in America. Your 
administration dispatched officers, as well as his daughter, to urge 
him to return, even coercing him to comply, which is illegal here in 
the United States. Without any legal agreement between the two 
governments, China sent its law enforcement officers to try to catch 
some one in the US. What are your comments
    44. USA or Russia--which one is likely to be China's long-term 
ally, and why?
    45. How many family members of your officials, including most 
senior-level (sitting and retired) have migrated to the USA, Canada, 
Australia, Japan, and European countries? And what about their ill-
gotten wealth? Do you have accurate information about them? Do you 
think USA and other countries know this information? In other words, 
China's senior leadership and their subordinates and family members, 
along with their records of corruption, are all in the hand of these 
countries. How can you afford confrontation with them? Not to mention, 
in military conflicts. Can you bear the consequences? Your hard-line 
rhetoric seems to fool your domestic audience does it not?
    46. China's leaders, including you, often meet with protests and 
demonstration by the Chinese citizens wherever such a visit happens. 
Why is that?
                                 viii.
    47. You often emphasized the ``new norm'' for the Chinese business 
community and ordinary people when the economy slows down. Meanwhile, 
government forces helped prop up stock prices, and in cracking down on 
``short-selling'' following the market plunge, which had been reported 
by commentators and journalists, these voices have been silenced with 
arrests and those investment institutions and individuals threatened 
against any possible short-selling. Do you think this kind of scheme 
would work and save the stock markets?
    48. Your government have finally found CaiJing journalist Li Xiaolu 
as a scapegoat for the recent stock market crisis and forced him to 
confess on CCTV. If Li Xiaolu had the capacity to short-sell the 
Chinese stocks with his mere reporting, then he is supposed to replace 
Premier Li Keqiang, given such a potential. What do you think?
    49. On the 3rd plenary session of the 18th Party Congress, you 
promised to let market forces play a leading, even decisive role, how 
do you explain the government's hand intervening in economic issues in 
a more aggressively manner?
    50. China's state banks possess huge bad debts. Are they loans to 
the state-owned enterprises, local governments, or private businesses?
    51. Is Household Registration Law a kind systematic discrimination? 
One ``People's Deputy'' in rural areas represents four times the number 
of a population than that of the urban areas, i.e., political rights of 
villagers equals a quarter of those in urban communities. Isn't that 
blatant political discrimination? Migrant workers in cities pay their 
taxes, then why can they be denied any public services, such as their 
children's rights to attend local public schools?
    52. China's public services don't match its tax collection. Thus, 
its fragile, limited social security cannot support the general mass 
with affordable healthcare, basic schooling, aging care, yet 
ironically, your administration still call itself a socialist country. 
How can this be the case when the country's citizens cannot be provided 
these basic, necessary social services?
    53. As the Secretary General of the Communist Party of China, do 
you mean to realize the communism in China when you talk about your 
``China Dream? ''
                                  ix.
    54. While visiting Russia, you said that only felt tall if the 
shoes fit, as rhetoric to hinder international community 
``interference'' in the political system on your side. Why didn't you 
say this inside China? Does this mean you fear people's choice of an 
appropriate system to fit their own needs?
    55. Why don't you let Tibetans, Urghurs, Mongolians, and Hong Kong 
residents to tell you if their shoes fit their feet, and in doing so, 
you know well in your heart that they will achieve genuine self-rule in 
their autonomous regions?
    56. You must know that His Holiness the Dalai Lama deserves high 
regards in global community. Do you think those who respect the Dalai 
Lama intend to confront China? Will you invite the Dalai Lama to a 
pilgrimage to Mount Wutai (Wutaishan)?
    57. Why can't the Uyghurs keep their beards and whiskers? As you 
mentioned in your speech on military parade, the Communist ancestor was 
a man with great beard, so why do you comment on his spectacular beard?
    58. In the past 5 years, more than 140 Tibetans have died of self-
immolation. What do you know of the reasons? If you really believe in 
Marxism or Confucius, dare you engage in self-immolation if you are 
encouraged to do so?
    59. The Communists of China claim to be atheists. Then why do you 
and your government insist in intervening in the reincarnation of a 
Living Budda in Tibetan Buddhism?
    60. Why has the Communist Party chief Xia Baolong of Zhejiang 
province ordered demolition of more than 1,500 churches and crosses in 
that province?
                                   x.
    61. In your first article published by the People's Daily on 
December 7, 1984, entitled ''Young and middle-aged cadres must respect 
the oldies'' you said that the generational exchange of guards in power 
should be cooperation and replacement. ``Respecting the old'' is a 
prerequisite for cooperation, while the latter is the foundation for 
replacement. In contrast, the People's Daily recently published a piece 
saying ``cool off'' like tea after guests leaving, referring that those 
officials after retirement should not interfere with the sitting 
leadership. What's your current view on the old comrades? Do you think 
the elders like Jiang Zemin has become a hindrance on your path to 
power? The late Deng Xiaoping toppled the tenure of two chiefs of the 
Communist Party, committed the Tiananmen Massacre (the crime of 
slaughtering innocent people) in June 1989, followed by his ``Southern 
Inspection Tour'' in 1992. All these are perfect examples that 
demonstrate a consistent interference by the elders in China's 
politics. Why didn't you oppose him?
    62. Are you willing to follow suit of Chiang Ching-kuo to end a ban 
of political parties, and open up to freedom of the press, embracing 
constitutional democracy and the rule of law? Or are you in tune with 
your wife's famous song ``Dynasty'' which echoes the old regime that 
those founders pass on their dynasties to their offspring, i.e., in 
your case, RED Siblings like you and those offspring of the first 
Communist leadership taking control of China under communist rule. Some 
people say you worship Mao Zedong and Vladimir Putin. If so, do you 
want to become a lifetime leader
    63. If drawing a comparison between Mao Zedong thought and those of 
your father, which influenced you the most
    64. What is your ultimate goal? Multiple choice: A. To achieve 
ultimate personal power to make sure no obstacle or challenge exists 
while in power. B. To ride high, and maintain the Communist rule in the 
hands of red siblings. C. To seek appropriate opportunities to achieve 
a peaceful political evolution for China to look up to the most 
advanced countries for democracy. D. To restore the mental outlook of 
Mao-style leadership, and even surpass Mao himself and your 
predecessors.
                                 ______
                                 
                                 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
                                 

                  Prepared Statement of Shohret Hoshur

                           september 18, 2015
    Chairman Christopher Smith, Co-chairman Marco Rubio and Commission 
Members, thank you for inviting me to testify this afternoon at today's 
hearing, ``Urging China's President Xi Jinping to Stop State-Sponsored 
Human Rights Abuses.'' I am a U.S. citizen, a resident of the 
Commonwealth of Virginia, and a journalist for Radio Free Asia, a 
private, nonprofit corporation that broadcasts news and information to 
listeners in Asian countries where full, accurate, and timely news 
reports are unavailable, including China.
    I came to the United States in 1999, almost five years after 
leaving my homeland in China's far western Uyghur region in 1994. The 
journey that took me away from my family did not begin by choice. I 
left to escape the wrath of local Chinese authorities who deemed two of 
my writings for local Uyghur-language newspapers as subversive. I was a 
journalist for Qorghas Radio and Television, a local media outlet in 
the Xinjiang Uyghur Autonomous Region, when I decided to write two 
pieces about Beijing's harsh oppression of Uyghurs.
    The choice I made then, upon leaving China, as now, was to never 
give up being a reporter covering the XUAR. To give that up would mean 
that a remote part of the world and its people--the Uyghurs--would lose 
one of their only lifelines to reliable news and information about 
what's happening in their own neighborhoods and communities. When I 
began working for Radio Free Asia in 2007, it was a great opportunity 
to continue work that is badly needed. But it was also an opportunity 
seized by Chinese authorities as they began to harass my family. At 
first it was questions for my brothers, my sister, and my mother, 
asking them about my whereabouts after I left. But as my reports for 
RFA began to be heard by Uyghurs listening on shortwave radio and 
reading my stories on the web, authorities wasted little time in making 
it clear to my family--and to me--that they would one day pay a price 
for my journalism.
    In September 2009, following the broadcast of my report on the 
death of a jailed Uyghur torture victim, local authorities from my 
native Qorghas County visited my family in person. They forced my 
brothers to call me and demand that I leave my job at RFA. They told 
them that if I continued my work, they were in danger. In 2009, 
authorities linked my report on a violent incident between migrant 
ethnic Uyghurs and Han Chinese at a factory in Shaoguan to the unrest 
that erupted in July in the XUAR capitol city of Urumqi, which became 
known as the Urumqi Uprising.
    For the next several years, as China ramped up its security 
clampdown in Xinjiang, violence intensified and grew more frequent. But 
China's state-controlled media rarely reported on these deadly 
incidents. Radio Free Asia disclosed the majority, often through my 
reports.
    The threats--against my family, and, by way of my family, me--
became more frequent and grave during this period. They culminated last 
year when all three of my brothers were jailed. My younger brother 
Tudaxun was detained in April before being tried in court and sentenced 
to five years in prison. He was charged with ``endangering state 
security.'' My two other brothers, Rexim and Shawket, talked with me 
about Tudaxun's situation on the phone in June. I tried to comfort them 
when they grew understandably emotional. I told them that in time, the 
situation might improve. The next month, in July, a Chinese daily 
newspaper The Global Times ran a story attacking Radio Free Asia for 
its coverage of violence in Xinjiang. Though I wasn't named, the 
article cited my June phone call with my brothers, which had been 
intercepted by state surveillance.
    In August 2014, local authorities also detained Rexim and Shawket. 
Their families have not seen them since. They were later charged with 
``leaking state secrets''--I believe largely in connection with that 
phone call with me in June. They were also charged with ``endangering 
state security.'' When it became clear that the authorities were not 
going to release them, I reached out with the help of RFA to the 
Committee to Protect Journalists, which issued a press release about my 
brothers' situation in January 2015. The case received wide attention 
in global media and interest here from the U.S. government. Their 
families and my sister were informed of their cases being reopened by 
authorities--hopeful news in China where a prosecutorial office almost 
never calls for the re-opening of a case submitted by police.
    But our hopes soon dimmed when it became obvious, despite this 
development, that my brothers were to remain behind bars. Eventually, 
after the postponing of several court dates that came after inquiries 
from the U.S. Department of State to Chinese officials in the embassy 
here in Washington and overseas in Beijing, their separate trials were 
finally held this past August at the Urumqi Intermediate Court. They 
now await their verdicts, which the judge told their lawyers would be 
issued by the Chinese Political and Law Council (``Zhengfawei''). These 
could come in two months, putting them after President Xi Jinping's 
state visit to Washington.
    I am grateful for the attention and concern my family's case has 
received in the global press from fellow journalists--particularly from 
The Washington Post and The New York Times and among human rights 
groups, U.S. officials, and members of Congress. We have worked with 
Senator Rubio and Senator Warner to raise this issue with State 
Department. This week on Monday (Sept. 14, 2015) I met with U.S. 
Assistant Secretary of State for Democracy, Human Rights and Labor Tom 
Malinowski. He assured me that there is serious concern about my case 
throughout the department.
    But despite these efforts--and despite the sincere concern, for 
which I feel fortunate--my brothers remain in jail. The suffering 
continues for my mother, my sister, and of course my brothers' 
families. Their families are fatherless and without their husbands, and 
now basically without income. My 76-year-old mother worries.
    For me, one thing is certain, I cannot give up my work at Radio 
Free Asia. As tensions and violence have escalated in the XUAR, the 
Uyghur people yearn for trustworthy news.
    Today, I am here to ask for officials in the U.S. government--my 
government--and the Administration to raise this case with President Xi 
next week. My family only wants to be left alone, free from persecution 
by local authorities. They want to live their lives as citizens of a 
country that respects their wish to be husbands and fathers, looking 
after their families. I know my case is not unique. Many of my 
colleagues at Radio Free Asia with relatives in China also have faced 
retribution and harassment. But I hope my testimony today helps to 
ensure that the United States will continue to stand up for people like 
me who came to this country in hope of having the freedom and rights we 
didn't have in our homelands.
                                 ______
                                 

                  Prepared Statement of Ethan Gutmann

The Anatomy of Mass Murder: China's Unfinished Harvest of Prisoners of 
                               Conscience

                           september 18, 2015
    Thank you.
    In order to piece together the story of how mass organ harvesting 
of prisoners of conscience evolved in China, I spoke with medical 
professionals, Chinese law enforcement, and over 100 refugees. My 
interviews began in 2006. My book, The Slaughter, was published last 
year.
    I was not the first to examine this issue in depth. That 
distinction belongs to David Kilgour and David Matas, the authors of 
the seminal Bloody Harvest report of 2006.
    Nor will I be the last. The World Organization to Investigate the 
Persecution of Falun Gong, a group of Chinese investigators scattered 
throughout the world, have just completed their own study.
    Based on our collective evidence (and I have included three short 
excerpts from each of these reports that I request be entered into the 
record), here is a brief timeline of what we know:
    In 1994, the first live organ harvests of death-row prisoners were 
performed on the execution grounds of Xinjiang in Northwest China.
    In 1997, following the ``Ghulja massacre,'' the first political 
prisoners, Uyghur activists, were harvested on behalf of high-ranking 
Chinese Communist Party cadres.
    In 1999, Chinese State Security launched its largest action of 
scale since the Cultural Revolution: the eradication of Falun Gong.
    In 2000, hospitals across China began ramping up their facilities 
for what would become an unprecedented explosion in China's transplant 
activity. And by the end of that year, well over one million Falun Gong 
practitioners were incarcerated in labor camps, detention centers, 
psychiatric facilities, and black jails.
    By 2001, Chinese military hospitals were unambiguously targeting 
select Falun Gong prisoners for harvesting.
    By 2003, the first Tibetans were being targeted as well.
    By the end of 2005, China's transplant apparatus had increased so 
dramatically that a tissue-matched organ could be located within two 
weeks for any foreign organ tourist with cash. While the execution of 
death-row prisoners--hardened criminals--supplied some of the organs, 
the majority were extracted from Falun Gong practitioners--a fact that 
wasn't even being kept all that secret from the prisoner population, 
visiting foreign surgeons, or potential customers.
    Kilgour and Matas estimate 41,500 transplants were sourced from 
Falun Gong from 2000 to 2005. I estimate 65,000 Falun Gong 
practitioners were murdered for their organs from 2000 to 2008. The 
World Organization to Investigate the Persecution of Falun Gong 
believes the numbers are more likely in the hundreds of thousands.
    In early 2006, the Epoch Times revealed the first allegations of 
the organ harvesting of Falun Gong and was followed by the Kilgour-
Matas report.
    By 2008, many analysts--I was among them--assumed that the Chinese 
State would stop harvesting prisoners of conscience for fear of 
international condemnation during the Beijing Olympics. Yet the 
physical examination of Falun Gong prisoners for their retail organs 
actually showed a slight uptick.
    In 2012, Wang Lijun, Bo Xilai's right-hand man, attempted to defect 
at the US Consulate in Chengdu. Two weeks later the World Organization 
to Investigate the Persecution of Falun Gong revealed that Wang had 
personally received a prestigious award for overseeing thousands of 
organ extractions and transplants. Fatally exposed, Chinese medical 
authorities declared to the Western press that they would cease organ 
harvesting of death-row prisoners over the next five years. Yet no 
mention was made of prisoners of conscience and third-party 
verification was rejected.
    It is during this period, from 2012 to the present day--even as 
Chinese medical authorities spoke publicly of shortages due to relying 
on voluntary organ donation--that a very strange anomaly occurs. While 
China's hospitals have maintained strict Internet silence on their 
transplant activities since 2006, the hiring of transplant teams at 
many of the most notorious hospitals for harvesting prisoners of 
conscience is actually on the increase. In a handful of hospitals--for 
example, Beijing 309 military hospital--it's practically exponential.
    Witness accounts shed light on the mystery. One spoke to me about 
over 500 Falun Gong prisoners having been examined for their organs in 
a single day--the largest cattle call that I know of. A Western doctor 
was recently assured by a Chinese military hospital surgeon that 
prisoners are still being slaughtered for organs. And Falun Gong 
practitioners across China's provinces have described police forcibly 
administering blood tests and DNA cheek swabs--not in prison, not in a 
detention center, but in their homes.
    I can't supply a death count for House Christians, Uyghurs and 
Tibetans. But if I had to make an estimate on Falun Gong, I would 
double my previous numbers. I'm sure the World Organization to 
Investigate the Persecution of Falun Gong would go much further. Either 
way, two points are clear:

        <bullet> The official number of Chinese transplants per year--
        10,000--is a fiction. The real number is likely three times 
        that.
        <bullet> And the serial public declarations by the Chinese 
        medical establishment of a new ethical environment for 
        transplantation is simply a privacy shield to murder of 
        prisoners of conscience.

    What can we do? We are not the moral arbitrators of this tragedy. 
But neither is the World Health Organization or the Transplantation 
Society. The moral authority belongs to the families across China who 
have lost loved ones. Until we can hear their voices, we need, at a 
minimum, to follow our convictions.
    I'm not a lawyer, but in my layman's understanding, medical privacy 
ends when there is a gunshot involved. Why then do we adhere to strict 
medical privacy when there is an organ sourced in China? Why can't we 
even make a proper estimate of how many Americans received transplants 
in China? Why do we have to make guesses based on a humorous, feel-
good, account like Larry's Kidney?
    This is an obscenity; for an American to go to China for an organ 
in 2015 is to participate in an ongoing crime against humanity.
    So I ask you to remove our privacy shield. And until the Chinese 
State offers the full and comprehensive accounting that the world 
demands, I ask you to follow the example of two very small but brave 
countries--Israel and now, just recently, Taiwan--and ban organ tourism 
to China.
    Thank you.
                                 ______
                                 

  Prepared Statement of Hon. Christopher Smith, a U.S. Representative 
 From New Jersey; Chairman, Congressional-Executive Commission on China

                           september 18, 2015
    On July 10, police came for lawyer Wang Yu. Her arrest was the 
first in what became a massive crackdown on China's human rights 
defenders. Wang Yu was one of China's brightest and bravest lawyers. 
She chose to represent clients in ``sensitive cases,'' such as Uyghur 
professor Ilham Tohti and Falun Gong practitioners. Police later swept 
up her husband and others who worked at their Beijing law firm. What 
originally looked like a targeted attack on one law firm quickly became 
a coordinated hunt for human-rights lawyers and legal staff across 19 
Chinese provinces. Over the next few weeks over 300 were detained. Of 
that number around 27 remain incarcerated and 10 face charges of 
committing national security crimes.
    Li Heping and Zhang Kai, two lawyers well-known to the Congress and 
other Parliamentarians around the world--were ``disappeared'' in this 
crackdown. They remain missing and are reportedly denied access to 
family or legal counsel. Zhang Kai was arrested the night before a 
planned meeting with U.S. Ambassador at Large for Religious Freedom 
David Saperstein.
    These detentions were lawless, brutal, and shocking. Sadly, they 
are not without precedent in China. President Xi comes to the U.S. next 
week at a time when his government is staging an extraordinary assault 
on the rule of law, human rights, and civil society. Under Xi's 
leadership, the Chinese government has pushed through new laws and 
draft legislation that would legitimize political, religious, and 
ethnic repression, further curtail civil liberties, and expand 
censorship of the Internet.
    China also continues its coercive population control policies. The 
``One Child Policy'' will mark its 35th anniversary next week. That's 
35 years of telling couples what their families must look like; thirty-
five years of forced and coerced abortions and sterilizations; thirty-
five years of children viewed by the state as ``excess baggage'' from 
the day they were conceived. This policy is unacceptable, it is hated, 
it is tragic, and it is wrong. We urge President Xi to do the right 
thing and end China's horrific population control policies forever.
    The NGO Chinese Human Rights Defenders says President Xi has 
``overseen one of the most repressive periods in the post-Mao era.'' 
The CECC, whose Annual Report will be officially released in three 
weeks, will conclude that the Chinese government's efforts ``to silence 
dissent, suppress human rights advocacy, and control civil society are 
broader in scope than any other period documented since the Commission 
started issuing Annual Reports in 2002.''
    China is in a race to the bottom with North Korea for the title of 
world's worst violators of human rights. The hope that President Xi 
would be a different type of Chinese leader has been completely 
destroyed.
    Nonetheless, despite the torture and arrests, despite the 
harassment and censorship, despite the ``black jails'' and failed 
promises--rights advocates, civil society activists, and religious 
believers continue to grow in prestige and social influence in China. 
Persecution has not silenced them--at least not at this moment. It has 
not dimmed their hope for a different kind of ``China Dream'' that 
embraces human rights, freedom, and democracy.
    U.S. policy must be geared to protect China's rights defenders and 
religious communities, nurture China's civil society, and work with 
those committed to the rule of law and fundamental freedoms.
    The U.S. cannot be morally neutral in this regard. We cannot be 
silent in the face of the Chinese government's repression. We must show 
leadership and resolve because only the U.S. has the power and prestige 
to stand up to China's intransigence. U.S.-China relations would be 
stronger and more stable if people like Wang Yu, Li Heping and Zhang 
Kai were in positions of leadership in the Chinese government.
    Washington is preparing to roll out the red carpet next week for 
President Xi and his delegation. Toasts will be made, statements will 
be exchanged, and the highly symbolic gesture of a state visit will 
give President Xi a much-needed boost of legitimacy at home.
    If President Obama fails raise human rights prominently and 
publicly--it is a diplomatic win for Xi Jinping. If economic and 
security interests grab all the headlines, China's freedom advocates 
will despair. If there is no price paid for China's lawlessness and 
repression, it is a loss for everyone who is committed to freedom and 
rights.
    We can no longer afford to separate human rights from our other 
interests in China. Human rights can't be considered a separate track 
in negotiations, but integrated at all levels of engagement.
    Surprisingly, former Secretary of the Treasury Henry Paulson agrees 
with this assessment. Mr. Paulson is not known as a passionate defender 
of human rights, but in his latest book ``Dealing With China'' he says 
that the U.S. must not shy away from ``shining a light on human rights 
problems, because nothing good happens in the dark.'' He says the U.S. 
must push for greater transparency, the free flow of information, and 
better adherence to universal standards in China--not only because they 
represent universal values but because they are critical parts of U.S. 
economic interests in China.
    It is increasingly clear that there is direct link between China's 
domestic human rights problems and the security and prosperity of the 
United States. The health of the U.S. economy and environment, the 
safety of our food and drug supplies, the security of our investments 
and personal information in cyberspace, and the stability of the 
Pacific region will depend on China complying with international law, 
allowing the free flow of news and information, complying with its WTO 
obligations, and protecting the basic rights of Chinese citizens, 
including the fundamental freedoms of religion, expression, assembly, 
and association.
    President Obama must ``shine a light'' on China's human rights 
abuses. He must make clear to President Xi that the suppression of 
rights defenders, ethnic minorities, and civil society will adversely 
affect U.S-China relations. And, he must use all the diplomatic tools 
available, including sanctions if necessary, to demonstrate that human 
rights protections are a critical interest of the United States.
                                 ______
                                 

 Prepared Statement of Hon. Marco Rubio, a U.S. Senator From Florida; 
        Cochairman, Congressional-Executive Commission on China

                           september 18, 2015
    Events in China have garnered significant media attention in recent 
months. From wildly fluctuating markets which have directly impacted 
American businesses and families, to unprecedented cyberattacks on 
government networks which compromised the personal data of millions of 
Americans--China is in the news.
    These issues, along with China's continued aggression in the South 
China Sea will most assuredly be on the agenda during the upcoming 
State Visit of Chinese President and Communist Party General Secretary 
Xi Jinping next week. Whether the Obama administration will be able to 
secure meaningful progress on any of these fronts remains to be seen, 
although if previous rounds of cordial dialogue are any indication, the 
prospects are bleak.
    In addition to these myriad issues is China's grave and 
deteriorating human rights landscape--a particularly intractable area 
in our bilateral relations, and one which has worsened significantly on 
this administration's watch.
    The past year alone has been marked by further erosion of rule of 
law, tightening restrictions on civil society and outright attacks on 
human rights defenders and political dissidents. In its forthcoming 
annual report the Congressional-Executive Commission on China will 
document efforts to muzzle dissent and suppress human rights advocacy 
that are broader in scope than any other period since the Commission 
started issuing Annual Reports in 2002.
    We've seen human rights lawyers disappeared, churches demolished 
and crosses torn down and Tibetan Buddhist monks setting themselves 
aflame in desperation at the oppression experienced by their people.
    These are realities in Xi Jinping's China.
    While President Xi is greeted with a 21-gun salute, a prominent 
human rights lawyer is unaccounted for, his whereabouts unknown after 
being taken into custody by the Public Security Bureau. While President 
Xi is wined and dined in the White House, a Nobel Peace Prize Laureate 
languishes in prison.
    The CECC is featuring stories like these, and many others, through 
the ``Free China's Heroes'' initiative in the days leading up to Xi's 
visit. We are profiling the cases of individual prisoners of conscience 
in an effort to put a human face on the suffering that has accompanied 
Xi Jinping's ascent to power.
    Too often the Obama administration wants credit for ``raising human 
rights''--but passing mentions and diminished significance in the 
broader bilateral agenda provides little solace to the brave men and 
women who face unimaginable obstacles and hardship for daring to claim 
their most basic human rights.
    At the very least President Obama should meet with U.S.-based 
Chinese dissidents and activists before the state visit--even invite 
several of them to attend the state dinner.
    They represent the future of China. They are writers and lawyers. 
They are activists and students. They have democratic aspirations and 
dreams for their country that do not include harassment, abuse and 
imprisonment.
    It's time for America to get back on the right side of history--to 
stand with the oppressed not the oppressor.

                       Submission for the Record

                              ----------                              


   Urging China's President Xi Jinping To Stop State-Sponsored Human 
                             Rights Abuses

                           september 18, 2015

                          Witness Biographies

    Teng Biao, Chinese human rights lawyer, a Harvard University Law 
School Visiting Fellow, and Co-founder, the Open Constitution 
Initiative

    Teng Biao is a well-known human rights lawyer, Visiting Fellow at 
Harvard University Law School, and the Co-founder of the Open 
Constitution Initiatives. Dr. Teng Biao holds a Ph.D. from Peking 
University Law School and has been a visiting scholar at Yale Law 
School. He is interested in the research on human rights, judicial 
systems, constitutionalism, and social movements. As a human rights 
lawyer, Teng is a promoter of the Rights Defense Movement and a co-
initiator of the New Citizens' Movement in China. In 2003, he was one 
of the ``Three Doctors of Law'' who complained to the National People's 
Congress about unconstitutional detentions of internal migrants in the 
widely known ``Sun Zhigang Case.'' Since then, Teng Biao has provided 
counsel in numerous other human rights cases, including those of rural 
rights advocate Chen Guangcheng, rights defender Hu Jia, the religious 
freedom case of Cai Zhuohua and Wang Bo, and numerous death penalty 
cases.

    Xiao Qiang, Founder and Editor-in-Chief, China Digital Times

    Xiao Qiang is the Founder and Editor-in-Chief of China Digital 
Times, a bi-lingual China news website. He is an adjunct professor at 
the School of Information and the Graduate School of Journalism (2003 - 
2011), at the University of California, Berkeley. He is also the 
Principal Investigator of the Counter-Power Lab, an interdisciplinary 
faculty-student research group focusing on technology and free flow of 
information in cyberspace, based in the School of Information, UC 
Berkeley. Xiao became a full-time human rights activist after the 
Tiananmen Massacre in 1989 and was the Executive Director of the NGO 
Human Rights in China from 1991 to 2002. Xiao is a recipient of the 
MacArthur Fellowship in 2001 and in January 2015, he was named to 
Foreign Policy magazine's Pacific Power Index, a list of ``50 people 
shaping the future of the U.S.-China relationship.''

    Yang Jianli, President, Initiatives for China/Citizen Power for 
China

    Yang Jianli is President of Initiatives for China/ Citizen Power 
for China. Dr. Yang is a scholar and democracy activist internationally 
recognized for his efforts to promote democracy in China. He has been 
involved in the pro-democracy movement in China since the 1980s and was 
forced to flee China in 1989 after the Tiananmen Square massacre. He 
holds PhDs in mathematics from the University of California at Berkeley 
and in political economy and government from Harvard University's 
Kennedy School of Government. In 2002, Dr. Yang returned to China to 
support the labor movement and was imprisoned by Chinese authorities 
for espionage and illegal entry. Following his release 2007, he founded 
Initiatives for China, a non-governmental organization that promotes 
China's peaceful transition to democracy. In March, 2010, Dr. Yang co-
chaired the Committee on Internet Freedom at the Geneva Human Rights 
and Democracy Summit.

    Wei Jingsheng, Chairman, Overseas Chinese Democracy Coalition

    Wei Jingsheng is a long-time leader for the opposition against the 
Chinese Communist dictatorship. He was sentenced to jail twice for a 
total of more than 18 years due to his democracy activities, including 
a ground breaking and well publicized essay he wrote in 1978: ``the 
Fifth Modernization--Democracy''. He is a winner of numerous human 
rights awards and the author of the book ``Courage to Stand Alone--
letters from Prison and Other Writings''. After his exile to the USA in 
1997, he founded and has been the chairman of the Overseas Chinese 
Democracy Coalition (OCDC) which is an umbrella organization for many 
Chinese democracy groups, with members over dozens of countries. He is 
also the president for the Wei Jingsheng Foundation, and the president 
of the Asia Democracy Alliance.

    Shohret Hoshur, Journalist reporting news in China's Xinjiang 
Uyghur Autonomous Region for Radio Free Asia

    Shohret Hoshur is a journalist reporting on news in China's 
Xinjiang Uyghur Autonomous Region for Radio Free Asia, where he has 
worked since 2007. He began his career in 1989 in China's far west as a 
TV reporter. In 1994, Chinese authorities condemned two of his 
editorials as subversive, forcing him to flee his homeland. As stated 
in a New York Times profile, ``[h]is accounts of violence in his 
homeland are among the few reliable sources of information about 
incidents in a part of China that the government has sought to hide 
from international scrutiny.'' He graduated from Xinjiang University in 
1987 with a degree in Uyghur literature. Shohret is now a U.S. citizen 
residing in Alexandria, Virginia with his wife.

    Ethan Gutmann, China analyst and author of ``The Slaughter: Mass 
Killings, Organ Harvesting, and China's Secret Solution to Its 
Dissident Problem

    Ethan Gutmann is an award-winning China analyst and human-rights 
investigator and is the author of The Slaughter: Mass Killings, Organ 
Harvesting, and China's Secret Solution to its Dissident Problem 
(Prometheus, 2014) and Losing the New China: A Story of American 
Commerce, Desire and Betrayal (Encounter Books, 2004). He has written 
widely on China issues for publications such as the Asian Wall Street 
Journal, Investor's Business Daily, the Weekly Standard, National 
Review, and World Affairs Journal. Currently based in London, Gutmann 
has also been associated with several Washington think-tanks over the 
years, including the Foundation for Defense of Democracies, the Free 
Congress Research and Education Foundation, and the Brookings 
Institution.

                                 <all>
</pre></body></html>
